<html>
<title> - TESTIMONY OF MAJOR GENERAL ROBERT B. FLOWERS, U.S. ARMY</title>
<body><pre>[Senate Hearing 106-963]
[From the U.S. Government Printing Office]



.                                                       S. Hrg. 106-963

                       TESTIMONY OF MAJOR GENERAL
                      ROBERT B. FLOWERS, U.S. ARMY
=======================================================================

                                HEARING

                               BEFORE THE


                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 14, 2000
                               __________

  Printed for the use of the Committee on Environment and Public Works









 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                        U.S. GOVERNMENT PRINTING OFFICE
71-524                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED SIXTH CONGRESS
                             second session

                 ROBERT SMITH, New Hampshire, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
JAMES M. INHOFE, Oklahoma            DANIEL PATRICK MOYNIHAN, New York
CRAIG THOMAS, Wyoming                FRANK R. LAUTENBERG, New Jersey
CHRISTOPHER S. BOND, Missouri        HARRY REID, Nevada
GEORGE V. VOINOVICH, Ohio            BOB GRAHAM, Florida
MICHAEL D. CRAPO, Idaho              JOSEPH I. LIEBERMAN, Connecticut
ROBERT F. BENNETT, Utah              BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas          RON WYDEN, Oregon
LINCOLN CHAFEE, Rhode Island
                      Dave Conover, Staff Director
                  Tom Sliter, Minority Staff Director

                                  (ii)

  









                            C O N T E N T S

                              ----------                              
                                                                   Page

                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........18, 33
Boxer, Hon. Barbara, U.S. Senator from the State of California...    33
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...    11
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    21
Smith, Hon. Bob, U.S. Senator from the State of New Hampshire....12, 17
    Letter, management reforms of the Corps of Engineers, three 
      Senate committee chairmen..................................    15
Thomas, Hon. Craig, U.S. Senator from the State of Wyoming.......    28
Voinovich, George V., U.S. Senator from the State of Ohio........19, 34

                                WITNESS

Flowers, Major General Robert, U.S. Army, nominated by the 
  President to be Chief of Engineers.............................    22
    Biographical information.....................................    36
    Prepared statement...........................................    35
    Responses to additional questions from:
        Senator Inhofe...........................................    37
        Senator Thomas...........................................    38
        Senator Wyden............................................    39
        Written questions submitted in advance of the hearing....     1

                                 (iii)

  






                       TESTIMONY OF MAJOR GENERAL
                      ROBERT B. FLOWERS, U.S. ARMY

                              ----------                              


                      THURSDAY, SEPTEMBER 14, 2000


                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
406, Senate Dirksen Building, Hon. Robert C. Smith (chairman of 
the committee) presiding.
    Present: Senators Smith, Crapo, Inhofe, Voinovich, Thomas, 
Baucus, and Lautenberg.
    Senator Smith. The hearing will come to order.
    Good morning, General Flowers. Nice to have you here.
    General Flowers. Good morning, sir.
    Senator Smith. I am going to deviate just slightly from the 
norm here for just a moment. Senator Inhofe has another 
commitment and he had a question that he wanted to ask you, so 
I am going to yield to Senator Inhofe, and after that I will 
ask some questions.
    Senator Inhofe. I do appreciate that. We had General 
Flowers before the Senate Armed Services Committee, and I had 
asked you a couple questions concerning permitting. What I will 
do, rather than get into that now, is just submit that for the 
record.
    General Flowers. Yes, sir.
    [The questions and the answers thereto follow:]
         Advance Questions for Major General Robert B. Flowers
                            defense reforms
    Question 1. More than a decade has passed since the enactment of 
the Goldwater-Nichols Department of Defense Reorganization Act of 1986 
and the Special Operations reforms. You have had an opportunity to 
observe the implementation and impact of those reforms, particularly in 
your joint assignment.
    Do you support full implementation of these defense reforms?
    Response. Yes, I support full implementation of these reforms. The 
objectives of the Goldwater-Nichols legislation are as important today 
as when the Act passed. They promote the effectiveness of military 
operations, strengthen civilian control, provide for more efficient and 
effective use of defense resources, and improve the management and 
administration of the Department of the Army and Department of Defense.

    Question 2. What is your view of the extent to which these defense 
reforms have been implemented?
    Response. I understand that the Goldwater-Nichols reforms have been 
implemented fully within the Department of the Army. As the Chief of 
Engineers, I will continue to support these reforms and be guided by 
the objectives of this important legislation.

    Question 3. What do you consider to be the most important aspects 
of these defense reforms?
    Response. The Goldwater-Nichols reforms further a number of 
important objectives. Four that are particularly important are: (1) 
enhancing the effectiveness of military operations; (2) strengthening 
civilian control; (3) improving the management and administration of 
the Department of Defense; and (4) providing for more efficient use of 
defense resources.

    Question 4. The goals of the Congress in enacting these defense 
reforms, as reflected in section 3 of the Goldwater-Nichols Department 
of Defense Reorganization Act, can be summarized as strengthening 
civilian control; improving military advice; placing clear 
responsibility on the combatant commanders for the accomplishment of 
their missions; ensuring the authority of the combatant commanders is 
commensurate with their responsibility; increasing attention to the 
formulation of strategy and to contingency planning; providing for more 
efficient use of defense resources; and enhancing the effectiveness of 
military operations and improving the management and administration of 
the Department of Defense.
    Do you agree with these goals?
    Response. Yes, I fully support the goals of the Goldwaters-Nichols 
Act. They are as important today as they were when the legislation was 
enacted in 1986.
                             relationships
    Question 1. Please describe your understanding of the relationship 
of the Chief of Engineers, United States Army to the following offices:
    Response. (a) Secretary of Defense.--As head of the Department of 
Defense, the Secretary of Defense has full authority, direction and 
control over all its elements. He exercises this power over the Corps 
of Engineers through the Secretary of the Army, whose responsibility 
for, and authority to conduct all affairs of the Army is subject to the 
authority, direction and control of the Secretary of Defense. If 
confirmed, I will cooperate fully with the Secretary of Defense in 
fulfilling the Administration's national defense priorities and 
efficiently administering the Corps of Engineers in accordance with the 
policies established by the Office of the Secretary of Defense.
    (b) The Chairman of the Joint Chiefs of Staff.--The Chairman of the 
Joint Chiefs of Staffs the principal military adviser to the President, 
the National Security Council, and the Secretary of Defense. Subject to 
the authority, direction, and control of the President and the 
Secretary of Defense, the Chairman plans the strategic direction and 
contingency operations of the armed forces; advises the Secretary of 
Defense on requirements, programs and budgets identified by the 
commanders of the unified and specified combatant commands; develops 
doctrine for the joint employment of the armed forces; reports on 
assignment of functions (or roles and missions) to the armed forces; 
provides for representation of the United States on the Military Staff 
Committee of the United Nations; and performs such other duties as may 
be prescribed by law or by the President or Secretary of Defense. If 
confirmed, I will cooperate fully with the Chairman in his performance 
of these responsibilities. I will establish a close and professional 
relationship with him, and will communicate directly and openly with 
him.
    (c) The Secretary of the Army.--As head of the Department of the 
Army, the Secretary of the Army is responsible for, and has the 
authority necessary to conduct, all affairs of the Department of the 
Army. He may assign such of his functions, powers and duties as he 
considers appropriate to the Under Secretary of the Army, as well as 
the Assistant Secretaries of the Army, and require officers of the Army 
to report to these officials on any matter. As the Chief of Engineers, 
I will support the Secretary in the performance of his important 
duties. I will strive to establish and maintain a close, professional 
relationship with the Secretary of the Army, based on full and candid 
communication with him on all matters assigned to me.
    (d) The Under Secretary of the Army.--It is the prerogative of the 
Secretary of the Army to specifically define the relationship between 
the Under Secretary and the Chief of Engineers. The Under Secretary is 
the Secretary of the Army's principal civilian assistant and senior 
advisor on key Army issues. If confirmed, I will work closely with the 
Under Secretary of the Army as I perform my responsibilities as Chief 
of Engineers.
    (e) The Assistant Secretary of the Army for Civil Works.--The 
Assistant Secretary of the Army for Civil Works (ASA(CW)) is 
principally responsible for the overall supervision of the Army's civil 
works functions, including programs for conservation and development of 
the national water resources, flood control, navigation, and shore 
protection. The complex issues that arise in this area demand a close, 
professional relationship between the ASA(CW) and the Chief of 
Engineers, based on mutual respect, trust, cooperation and full 
communication. I am committed to establishing and maintaining such a 
relationship with the ASA(CW), in order to respond effectively to the 
President's priorities and the policy directives of the Congress.
    (f) The Other Assistant Secretaries of the Army.--The Assistant 
Secretaries of the Army perform such duties and exercise such powers as 
the Secretary may prescribe. Each of the Assistant Secretaries of the 
Army possesses clear duties and responsibilities. The Chief of 
Engineers cannot properly exercise his authorities without working 
closely with each Assistant Secretary on Corps of Engineers matters 
that affect their respective areas of responsibility. I look forward to 
establishing and maintaining close, professional relationships with 
these officials.
    (g) The General Counsel of the Army.--The General Counsel is the 
chief legal officer of the Army and serves as counsel to the Secretary 
and other Secretariat officials. If confirmed, I will establish a close 
and professional relationship with the General Counsel and will 
actively seek his guidance in order to ensure that Army Corps of 
Engineers policies and practices are in strict accordance with the law 
and the highest principles of ethical conduct.
    (h) The Chief of Staff of the Army.--The Chief of Staff of the Army 
performs his duties under the authority, direction and control of the 
Secretary of the Army and is directly responsible to the Secretary. The 
Chief of Staff also performs the duties prescribed for him by law as a 
member of the Joint Chiefs of Staff. If confirmed, I will establish and 
maintain a close, professional relationship with the Chief of Staff. I 
will communicate with him directly and openly as he performs his 
prescribed duties.
    (i) The Army Staff.--The Army Staff assists the Secretary of the 
Army in carrying out his responsibilities, by furnishing professional 
advice and operational expertise to the Secretary, the Under Secretary, 
and the Assistant Secretaries of the Army and to the Chief of Staff of 
the Army. Under the authority, direction and control of the Secretary 
of the Army, the Army Staff prepares for and assists in executing any 
power, duty or function of the Secretary or the Chief of Staff; 
investigates and reports on the Army's efficiency and preparedness to 
support military operations; supervises the execution of approved 
plans; and coordinates the actions of Army organizations, as directed 
by the Secretary or Chief of Staff. As a member of the Army Staff, the 
Chief of Engineers must develop close, professional relationships with 
the Chief of Staff, the Vice Chief of Staff, the Deputy and Assistant 
Chiefs of Staff, The Surgeon General, The Judge Advocate General, the 
Chief of Chaplains and the Chief of Army Reserve, in order to ensure 
that the Army Staff works harmoniously and effectively in assisting the 
Army Secretariat. I am committed to establishing and maintaining such 
relationships with the members of the Army Staff.
    (j) The Chief Executive of the States, Territories and the District 
of Columbia.--The Corps of Engineers must remain committed to working 
cooperatively with State and local authorities for the mutual benefit 
of local citizens and the protection of natural resources. These 
cooperative efforts must be undertaken in the context of the Corps' 
authorities and leg;al responsibilities. These responsibilities often 
require a balancing of diverse interests. The proper reconciliation of 
these interests demands open communication among all parties. I am 
committed to establishing and maintaining a full dialog with the Chief 
Executives of the States, Territories, and District of Columbia on all 
issues that we must cooperatively address.

    Question 2. Describe the chain of command for the Chief of 
Engineers on:
    Response. (a) Military Matters.--The Chief of Staff presides over 
the Army Staff. The Vice Chief of Staff has such authority and duties 
with respect to the Army Staff as the Chief of Staff, with the approval 
of the Secretary of the Army, may prescribe for him. As a member of the 
Army Staff, the Chief of Engineers reports to the Chief of Staff, 
through the Vice Chief of Staff, with respect to military matters.
    (b) Civil Works Matters.--The supervisory duties of the ASA(CW) 
extend to all civil works functions of the Army, including those 
relating to the conservation and development of water resources and the 
support for others program. The Chief of Engineers reports to the 
ASA(CW) on civil works functions.
    (c) Operational Matters. The Chief of Engineers serves both as a 
member of the Army Staff and a commander of 11 engineer divisions and 
one engineer battalion. When employed in support of military 
contingency operations, these engineer assets fall under the command 
and control of the Combatant Commander designated for the particular 
operation.
    (d) Any Other Matters For Which The Chief of Engineers May Be 
Responsible.--The functional responsibilities of the ASA(CW) also 
include most other matters for which the Chief of Engineers may be 
responsible, and the Chief of Engineers reports to the ASA(CW) with 
respect to any such matter. In the areas of installation and real 
estate management, the Chief of Engineers reports to the Assistant 
Secretary of the Army (Installations & Environment). Under the 
direction and control of the Secretary of the Army, the ASA(I&E) has 
principal responsibility for all DA matters related to installations 
and the environment.

    Question 3. Who is responsible for providing direction and 
supervision to the Chief of Engineers in each of the four areas listed 
above?
    Response. In each of these areas, the Chief of Engineers acts under 
the overall authority, direction and control of the Secretary of the 
Army. With respect to military matters, the Secretary has assigned to 
the Chief of Staff the authority to preside over and supervise the Army 
Staff, including the Chief of Engineers. With respect to civil works 
functions, the Chief of Engineers reports to the ASA(CW). In 
operational contexts, command and control of engineer assets is 
exercised by the Combatant Commanders designated for the particular 
operation.

    Question 4a. In your opinion, are there any areas of responsibility 
where it would be inappropriate for the Chief of Engineers to provide 
information to the Assistant Secretary of the Civil Works?
    Response. No. Unless the information is protected from disclosure 
for operational/security reasons or prohibited from disclosure by law, 
as in the case of certain procurement sensitive information, all 
information relating to the civil works program should be shared with 
the ASA(CW). I note that even in these instances, the information may 
be shared if appropriate steps are taken to protect sensitive or 
proprietary aspects of the information. The relationship between the 
ASA(CW) and the Chief of Engineers must be founded upon full, open and 
candid communication about all civil works matters. If confirmed, I 
will ensure that the ASA(CW)--and, with respect to installation and 
real estate management matters, the ASA(I&E)--are timely informed about 
any issue they specify and all significant matters arising within the 
Corps of Engineers, in order to ensure effective civilian control over 
the Corps' operations.

    Question 4b. If so, what areas and why?
    Response. Again, except in those narrow instances where the 
disclosure of information is inappropriate for operational/security 
reasons or prohibited by law, as in the case of procurement sensitive 
matters, I can think of no area in which information relevant to Corps 
of Engineers activities should not be provided freely, fully and 
promptly to the ASA(CW).
                            major challenges
    Question 1. In your view, what are the major challenges confronting 
the next Chief of Engineers, United States Army?
    Response. Historically, the Nation's rich and abundant water, and 
related land resources provided the foundation for our successful 
development and rapid achievement of preeminence within the 
international community. Since the beginning of our Nation, the U.S. 
Army Corps of Engineers has been a great asset, providing engineering 
support to the military, developing our nation's water resources, and 
restoring and protecting our environment. The Corps has improved the 
quality of our life by making America more prosperous, safe, and 
secure. The Corps must be flexible and evolve if it is to continue to 
make important contributions to the Nation and respond to today's 
problems.
    Communities across the country rely on water resources projects to 
reduce flood damages, compete more efficiently in world trade, provide 
needed water and power, and protect and restore our rich environmental 
resources. Our programs provide a sound investment in our Nation's 
security, economic future, and environmental stability. Our greatest 
continuing water resources challenge is to find sustainable ways to 
strengthen our Nation's economy while protecting and restoring our 
unique water and related land resources for the benefit of future 
generations.
    There are many pressing needs for water resources development in 
this country. Perhaps the two greatest challenges the Corps faces are 
the need to maintain our existing infrastructure, and to repair our 
damaged environment. We also face the need to have a ports and inland 
waterway system that will enable us to both efficiently transport goods 
and to do so in an environmentally acceptable manner. We need an 
efficient water transportation system if we as a Nation are to remain 
competitive in international trade. Flooding also continues to threaten 
our communities. We must not only find ways to use our limited 
resources to maintain the capability to respond to natural disasters 
when floods and hurricanes occur, but to also be more creative and work 
more with nature to prevent or reduce flood damages. Flood damages are 
a growing drain on our economy, and we must find ways to reduce them. 
There also is a need to help many communities, particularly poorer 
communities, find adequate sources of potable water and ways to manage 
wastewater disposal necessary for economic growth, prosperity, and the 
quality of life that people deserve.

    Question 2. If confirmed, what plans do you have for addressing 
these challenges?
    Response. We must all work together to define an appropriate 
Federal role in addressing these problems given fiscal capabilities and 
constraints, and economic and environmental requirements. The 
challenges the Corps faces are complex, and there are many difficult 
decisions to make. It is of paramount importance that we bring all 
interests to the table and that they have a voice in the development of 
solutions to our Nation's problems. The Corps must strive to be 
responsive in developing solutions to the Nation's water resources 
problems and needs, and must engage in an open and cooperative dialog 
with Congress, other Federal agencies, States, Tribes and local 
governments.
                         most serious problems
    Question 1. What do you consider to be the most serious problems in 
the performance of the functions of the Chief of Engineers, United 
States Army?
    Response. The Chief of Engineers has wide-ranging responsibilities 
arising from the varied missions of the Corps. Recognizing the diverse 
nature of the Corps programs, the Chief of Engineers needs to set clear 
leadership direction for the Corps as it performs its important Civil 
Works and military missions. That direction must ensure that it 
appropriately targets this Nation's critical needs and is supported by 
the American people.

    Question 2. What management actions and time lines would you 
establish to address these problems?
    Response. I have not developed a specific schedule for implementing 
this vision of clear leadership. One of my first priorities will be to 
meet with the Assistant Secretary of the Army for Civil Works and 
others in the Administration and Congress to seek their input and to 
develop a plan for how this challenge can be met. In addition, I will 
work to maintain and improve the technical expertise of the Corps 
workforce by ensuring that employees have opportunities to achieve 
their career goals and to make contributions that are acknowledged and 
appreciated.
                             qualifications
    Question 1. Sections 3031, 3032, and 3036 of title 10, United 
States Code prescribe some of the duties and responsibilities of the 
Chief of Engineers, United States Army. Other civil works related 
responsibilities are described in title 33, United States Code.
    What background and experience do you have that you believe 
qualifies you for this position?
    Response. I have spent my entire career as an Army officer and 
professional engineer working with and successfully managing difficult 
engineering and construction-related issues. During the past 31 years, 
I have had the privilege to serve in a variety of diverse and 
challenging positions. My service in these positions has, I believe, 
given me the experiences, skills, and vision necessary to step in and 
fulfill the important duties of this position. I have worked with a 
broad variety of officials within and without government, performed 
mission requirements under stressful conditions, and found solutions to 
difficult problems when there was no convenient roadmap to follow.
    With respect to my educational background, I received my 
undergraduate degree in Civil Engineering from Virginia Military 
Institute. I was awarded a Masters Degree in Civil Engineering from the 
University of Virginia. My military education includes the National War 
College and Command General Staff College. I am a registered 
professional engineer in Virginia.
    I have held a number of military assignments that qualify me for 
this position. I served as Theater Engineer in Desert Storm, Somalia, 
and during the initial operations in the Balkans. My other critical 
assignments include serving as the Commanding General, United States 
Army Engineer Division, Lower Mississippi Valley; serving as Assistant 
Division Commander, 2d Infantry Division, Eighth United States Army, 
Korea; and serving as the President of the Mississippi River Commission 
from 1995-1997.

    Question 2. Do you believe these multiple statutory references 
provide clear guidance or are they in conflict?
    Response. In my judgment, these statutes clearly describe the 
duties and responsibilities of the Chief of Engineers. I am, however, 
committed to working closely with Congress should a question arise 
concerning my duties and responsibilities as the Chief of Engineers in 
order to ensure that my actions are consistent with the authorities 
that Congress has enacted into law.
                          political pressures
    Question 1. Perhaps the most difficult part of the job of Chief of 
Engineers is the tactful handling of the inevitable political pressures 
that comes with overseeing major civil works projects.
    If confirmed, how will you deal with these pressures and ensure the 
integrity of the Corps of Engineers?
    Response. I am committed to maintaining the integrity of the Corps 
of Engineers. In this regard, if I am confirmed as the Chief of 
Engineers, I will work cooperatively with all interests and thoroughly 
consider all points of view. My discussions will be open and forthright 
and intended to ensure that Corps decisions are broadly understood and 
supported.

    Question 2. A February 24, 2000 article in the Washington Post 
reports that military officials in the Army Corps of Engineers 
developed a ``Program Growth Initiative'' providing financial targets 
for each of the agency's activities and divisions, without consulting 
the Office of the Chief of Engineers.
    Do you have any independent knowledge of these events?
    Response. I have no first hand knowledge of the specific facts 
related to the allegations made in that article.

    Question 3. In your opinion, would it be appropriate for military 
officials in the Corps of Engineers to develop plans for program growth 
including the establishment of financial targets without consulting the 
civilian leadership of the Army?
    Response. Typically, the Chief of Engineers makes Civil Works 
program recommendations to the Assistant Secretary of the Army (Civil 
Works), who in turn works with the Secretary of the Army and the Office 
of Management and Budget in developing the Administration's final 
position on program direction, consulting with Congress as appropriate.

    Question 4. What is your view of the initiative described in the 
article?
    Response. I have not developed a position on the initiative at this 
time. I am prepared to engage in discussions with the Assistant 
Secretary of the Army (Civil Works), the Office of Management and 
Budget, and the Congress to determine whether there is consensus 
support for broadening the Corps responsibilities to address certain 
national needs.

    Question 5. A second article in the same edition of the Washington 
Post cites a memorandum in which Major General Hans Van Winkle is 
reported to have told his top staff ``[W]e have to have support from 
Users Board, MARK 2000, and DYNAMO.'' Do you have any independent 
knowledge of the memorandum?
    Response. I have no first hand knowledge of the statement by Major 
General Hans Van Winkle or the facts behind that statement.

    Question 6. What role should the approval or disapproval of 
navigation industry groups play in decisions made by the Corps of 
Engineers about specific projects?
    Response. Decisions about Corps of Engineers projects are the 
responsibility of officials in the Executive and legislative branches. 
However, the Corps often is required by law, and invariably finds it 
beneficial, to seek input from affected interests and the public during 
the development of proposed Civil Works decisions. The Corps welcomes 
input from as broad a constituency as possible. Concerns of the 
affected stakeholders, and the public at large, are crucial in 
validating needs and priorities and identifying impacts.

    Question 7a. Does the Army Corps of Engineers currently have a 
system in place to ensure the independent peer review of studies 
supporting major projects by experts from outside the agency before 
such projects are approved?
    Response. No. Although the Corps does conduct both technical and 
policy reviews of projects, they are not the type of formal peer review 
practiced by the scientists and engineers in the research community. 
The existing review process for major studies does, however, include 
opportunities for comment by, and consultation with, stakeholders, 
elected officials at all levels, other Federal agencies, technical 
experts, and the general public before recommendations are submitted to 
the Administration and to Congress.

    Question 7b. If not, do you believe that it would be appropriate to 
institute such an independent peer review program? Why or why not?
    Response. I would be willing to consider looking at such a 
proposal, however, there are a number of factors to be considered. An 
independent peer review program would be overlaid upon the existing 
system checks and balances to ensure the accuracy and objectivity of 
study results. I would want to confirm that the benefits of such a 
program justify the cost and time associated with it.
         proposed management reforms of the corps of engineers
    Question 1. On March 30, 2000, the Secretary of the Army issued a 
memorandum entitled, ``Civil Works Management Reforms''.
    What is your personal assessment of the proposal?
    Response. I understand the need to ensure that the relationship 
between the Chief of Engineers and the ASA(CW) is clear and that the 
OASA (CW) and Corps of Engineers communicate fully on all issues. I 
also understand the need to preserve the independent, professional 
engineering judgment of the Chief of Engineers and to ensure that the 
essential flow of information to Congress on civil works matters is not 
interrupted. The Secretary has assured me that he expects me to 
communicate fully with Congress on matters of concern to the Congress 
and to continue to submit my personal recommendations to Congress 
regarding the authorization of projects in Chief of Engineers reports.

    Question 2. Do you believe that the management reforms should be 
put on hold until you and/or the next Administration have a chance to 
review them?
    Response. The issue of whether the reforms should be put on hold 
for the next Administration is essentially a political judgment that 
others within the executive and legislative branches are better 
qualified to make. I do understand, however, that the Secretary has 
agreed to delay further implementation of the reforms pending 
additional consultation with Congress.
                district of columbia school construction
    Question 1. There have been recent press reports about the 
performance of the Corps of Engineers in dealing with the construction 
project in the District of Columbia school system.
    Please provide your view of the reports with regard to this project 
and your assessment of the status of this program.
    Response. I have not been personally involved with any matter 
relating to the assistance that the Corps of Engineers is providing to 
the District of Columbia school system. I am, however, generally 
familiar with the important services the Corps of Engineers provides to 
other Federal agencies, states, and political subdivisions of states in 
connection with its ``Support for Others'' program. I plan to work 
closely with the executive and legislative branches to ensure that the 
services requested match up with the Corps capabilities, are not 
reasonably and expeditiously available elsewhere in the private sector, 
and ultimately can be provided by the Corps in an effective manner 
consistent with its mission requirements.
                       use of emergency authority
    Question 1. In the past, there may have been attempts to require 
the Corps to accelerate construction projects by having the Corps of 
Engineers declare the projects to be an emergency under the authority 
of Public Law 8499.
    What criteria would you use to determine which projects truly 
constitute an emergency and require special funding?
    Response. I am not personally familiar with the specific facts of 
the situations to which you refer. I am however cognizant of the need 
to carefully exercise this authority to ensure that the actions taken 
are consistent with the various actions contemplated in the statute. 
Those actions include flood emergency preparation; flood fighting and 
rescue operations; repairing and restoring flood control works or 
hurricane and shore protective structures when warranted by emergency 
circumstances; and providing emergency supplies of clean drinking 
water. Engineer Regulation 500-1-1 (1991), Natural Disaster Procedures, 
provides guidance on decisionmaking under this authority.
                         environmental concerns
    Question 1. If confirmed, you will take command of the largest 
construction element in this country. In dealing with virtually every 
civil and public works project of the Corps, there is the very real 
concern for our environment.
    What is your philosophy in balancing the missions and projects of 
the Corps of Engineers with the provisions of the National 
Environmental Protection Act (NEPA)?
    Response. I am committed to the precept that the Corps can and must 
carry out its missions in an environmentally responsible manner. The 
Corps has a long record of coordinating its missions and planning its 
projects in compliance with the provisions of NEPA, which has led to 
better and more environmentally sensitive projects. While Corps 
missions and projects have potential to be environmentally damaging, I 
am committed to ensuring that they are planned and constructed in such 
a manner as to avoid or minimize environmental impacts. In those 
instances where impacts to significant resources cannot be avoided, a 
mitigation plan for the impacts will be developed.
           upper mississippi river/illinois waterway project
    Question 1. Recently there has been some controversy surrounding 
the Upper Mississippi River/Illinois Waterway project. There has been 
an allegation by a Corps of Engineers civilian employee that the Corps 
of Engineers, ``intentionally and deliberately altered a portion'' of 
the $50 million study of this navigation system, thus rendering this 
entire study worthless.
    What is your comment about the integrity of the study?
    Response. The Army takes very seriously any allegation of 
misconduct by senior Corps officials, and is thoroughly and impartially 
investigating the allegations that have been made in this matter. The 
Army also appreciates the importance of this navigation study and is 
committed to an open and objective process in which the American people 
can have full confidence. Accordingly, the Army has engaged the highly 
respected National Academy of Sciences to undertake an independent 
review of the economic aspects of this study.

    Question 2. Do you believe anyone in the Corps direct that this 
study be altered to assure a specific outcome?
    Response. I have no first hand knowledge of the matters under 
investigation. The Army is thoroughly investigating this matter under 
the direction of the Special Counsel and the Secretary of Defense. I am 
confident that this investigation will reveal all of the relevant 
facts.

    Question 3. If so, what is being done to ensure the quality and 
integrity of this very expensive and important study?
    Response. The National Academy of Sciences is conducting an 
independent, objective review of the Corps' navigation study, to ensure 
that it correctly incorporates scientifically sound, valid analyses. 
The Academy's review is intended to ensure that valid data and study 
methodologies have been employed and that the American public can have 
full confidence in the objectivity of the ultimate study conclusions.

    Question 4. Despite the outcome of the investigations in this 
matter, how will you ensure the employee who made these allegations is 
not subject to retaliation for making such allegations?
    Response. Irrespective of whether the allegations are confirmed or 
refuted, the Chief of Engineers will be responsible for ensuring that 
the Corps of Engineers maintains a workplace free of reprisals, or the 
threat of reprisals, against any employee. If confirmed, I will ensure 
that all supervisors throughout the Corps understand, appreciate, and 
fulfill their responsibility to safeguard subordinates from any 
improper retaliatory measures.

    Question 5. The Lead Economist for the project has stated in a 
sworn affidavit that he was directed by his superiors to change the 
``N'' value for grain in his economic analysis.
    Do you have any independent knowledge of whether such direction was 
given?
    Response. I have no independent knowledge of whether such direction 
was given.

    Question 6. Do you believe that it would be appropriate for Army 
Corps of Engineers officials to direct specific values to be included 
in an economic analysis?
    Response. The integrity of economic analyses performed by the Army 
Corps of Engineers rests on the openness, objectivity and scientific 
validity of the analytical processes employed in performing such 
analyses. Any direction by Corps officials that undermines, or appears 
to undermine such openness, objectivity or scientific validity would be 
inappropriate. If confirmed, I will ensure that economic analyses 
performed by the Corps of Engineers are worthy of the public's complete 
confidence.

    Question 7. Do you have any independent expertise in the area of 
economic analysis?
    Response. No.
                       most significant projects
    Question 1. What do you see as the most significant projects 
planned for the next 10 years by the Corps of Engineers?
    Response. The Corps civil works and military construction missions 
include many significant projects.
    The work that is being done to support the Florida Everglades 
Restoration is a major inter-governmental effort with national 
implications. Similarly, the actions that are being taken to preserve 
and restore endangered fish species in the Lower Snake and Columbia 
Rivers involve another nationally prominent environmental restoration 
effort.
    The Corps navigation projects are designed to assure that the 
nation's navigation system continues to be efficient and to support the 
balance of trade. Particularly prominent navigation projects include 
the Oakland Harbor, New York & New Jersey Harbor, and Olmstead Locks 
and Dams.
    Continued support to quality of life initiatives, such as the 
Army's Barracks Upgrade/Renewal Programs and privatization of family 
housing are some of the Corps of Engineers most prominent military 
construction missions.
    The construction in Israel associated with the Wye River Accord and 
the support to contingency operations are two examples of prominent 
missions involving other DOD elements.

    Question 2. In your opinion, is the Corps of Engineers properly 
resourced and staffed to complete these projects?
    Response. While I have a general familiarity with the issues that 
the organization faces, I cannot State at this time whether the Corps 
is properly resourced and staffed to effectively execute all of its 
mission requirements. If I am confirmed as the Chief of Engineers, I am 
committed to examining this issue, and to working with the 
Administration and Congress to ensure that the Corps of Engineers is 
properly staffed and resourced to meet the Nation's critical and 
important needs.
                           dredging projects
    Question 1. The Corps of Engineers has many dredging projects with 
an increasing need for suitable disposal sites. Not only does the need 
for disposal sites increase the cost of the dredging, but the potential 
contamination of the dredge spoils raises concern about adverse impact 
on the environment near the disposal site.
    How will the Corps deal with this issue?
    Response. The Corps of Engineers has expended considerable effort 
in attempting to address the challenge of proper disposal of dredge 
material. I understand that substantial research is underway to 
identify decontamination processes and consolidation procedures in 
order to clean the material and prolong the capacity of disposal sites. 
Extensive efforts also are underway to identify beneficial uses of 
dredged material with very promising results. The Corps must continue 
to focus on finding ways to apply dredged material to beneficial uses 
and to identify ways to reduce the costs of channel deepening and 
maintenance.

    Question 2. What is the status of available disposal sites?
    Response. I am not familiar with the status of available disposal 
sites but if confirmed, I would be active in examining their status in 
an effort to ensure that they were sufficient to meet national needs.
                          beach renourishment
    Question 1. Beach renourishment projects have had mixed results.
    What are your views on the effectiveness of these projects when 
balanced against their tremendous cost?
    Response. Like most water resources problems, there is no one 
solution to the many challenges that coastal flooding presents. Beach 
renourishment projects generally have less severe adverse impacts--
particularly to adjacent areas--and can accommodate recreational usage. 
Yet, they are often expensive and should only be recommended where they 
are economically justified. In general, however, beach renourishment 
projects can be an effective solution to certain types of problems and 
should continue to be considered by both Federal and non-Federal 
interests when evaluating damages to coastal areas.
                          hydro-power projects
    Question 1. The Corps of Engineers operates a number of hydro-power 
projects, several of which have caused environmental concerns.
    Do you plan to review these projects?
    Response. I recognize there are environmental concerns associated 
with these projects. These concerns need to be addressed along with all 
the other authorized purposes of the project in order to optimize the 
benefits consistent with our environmental stewardship 
responsibilities. If confirmed, I will work closely with affected 
local, state, regional, and Federal agencies to achieve a mutual 
understanding and resolution of these complex issues.

    Question 2. Do you support mitigation payments to states that are 
adversely affected by such projects?
    Response. Again, all the benefits and impacts of a project need to 
be evaluated. If confirmed, I will work closely with those states in 
question to determine if any type of mitigation is necessary and the 
best way to provide it.
                            land management
    Question 1. The Corps of Engineers' management of various lake 
properties throughout the Nation has a direct economic impact on the 
local communities. Many of these communities believe the Corps should 
be more flexible with property owners and should allow more development 
on the large tracts of land surrounding the Corps lakes to enhance the 
tax base of the communities.
    What are your views on this issue?
    Response. In general, I believe that land use and development 
decisions on private land should be left to appropriate local 
governmental entities such as zoning boards. With respect to Federal 
land, the Corps has a responsibility to protect the public investment 
in the property and to ensure that the land is used for the 
Congressionally authorized purposes for which it was acquired. In these 
instances, it would not be appropriate to allow development on Federal 
land unless Congress authorizes such development.
                     allegations of waste and abuse
    Question 1. The Corps of Engineers has been the subject of 
significant public attention in the past year, including allegations of 
waste and abuse and a highly publicized clash with the Army 
Secretariat. You are a career Corps officer who has been involved in 
the sort of major civil works projects, which are the subject of these 
disputes.
    If confirmed, would you be able to deal with these problems?
    Response. The fact that I have been a Corps of Engineers Division 
Commander will serve me well, if I become the new Chief, in dealing 
with disputes relating to the Corps of Engineers civil works 
activities. I understand the need to cooperate and communicate openly 
with all interested parties, in order to make sound decisions and to 
avoid perceptions of bias. I also understand the complexity of the 
issues involved in formulating recommendations for water resources 
development and for environmental restoration.

    Question 2. What would your plans be for dealing with them?
    Response. I would emphasize the high professional standards to 
which the officers and civilians of the Army Corps of Engineers strive. 
I would expect all employees to perform their jobs consistently in 
accordance with those standards. If, after a full and fair 
investigation, I found that those standards were not being adhered to, 
I would take steps to hold the parties accountable.
                          anthrax vaccination
    Question 1. Have you received any of the series of anthrax 
vaccinations?
    Response. Yes.

    Question 1. If not, why not? And would you be willing to begin the 
vaccination protocol before you are confirmed?
    Response. N/A

    Question 1. If confirmed, what will you do to ensure the confidence 
of the force in the safety and necessity of the anthrax vaccine?
    Response. The anthrax vaccination program is a highly effective 
method of countering the threat of biological weapons. I fully support 
the Anthrax Immunization Vaccination Program and the Department of 
Defense view that it is one of the cornerstones of Force Health 
Protection. I recognize that anthrax protection is particularly 
challenging because the vaccination protocol requires multiple doses to 
achieve immunity, and thus involves significant administrative and 
logistical issues. I will support the Army's efforts to provide up-to-
date information about the anthrax vaccine and the threat to our 
personnel.
                            micro-management
    Question 1. A survey of almost 2,500 young officers last fall found 
that only about one-third intend to make a career of the military and 
that those planning to leave are disgruntled about ``micro-
management'', heavy workloads while in port, and a ``zero defects 
mentality'' among their superiors.
    What is your assessment of these findings?
    Response. In general, I have found our young officers to be highly 
motivated, and enthusiastic about serving their country. I am aware, 
however, that our high personnel tempo has resulted in lower morale 
among some junior officers. I am concerned about this and other survey 
findings. It is absolutely critical to our Army that we produce leaders 
who are highly motivated, properly treated, and appropriately utilized. 
I and other senior leaders of the Army must strive to avoid the 
creation of a zero defect environment so that all of our subordinates 
will exercise initiative and use their best judgment free from the fear 
of making career-ending decisions. I will also continue to endeavor to 
be fair in all of my dealings with my subordinates, in what I expect 
from them, in providing them with opportunity for development, and when 
needed, in imposing discipline.
    We must learn as much as we can about the problems that our junior 
officers have raised. In this regard, I support the initiatives of the 
Secretary of the Army, and the Army Chief of Staff of the Army, in 
forming two Blue Ribbon Panels to examine training and leader 
development methods, as well as to assess how to better meet the 
personal and professional expectations of leaders, soldiers, and 
families.

    Question 2. If you agree with the findings, what actions do you 
plan to correct these concerns?
    Response. I will closely study the results and recommendations of 
the Blue Ribbon Panels to improve the Army's training and leader 
development processes. I will take steps to maintain and improve the 
quality of life for all of the Corp's soldiers and civilian employees 
and their family members. I will frequently consult with my junior 
officers and enlisted personnel to ensure that we are providing an 
excellent work environment and affording them every opportunity to 
develop and learn so they are ready to assume the leadership roles we 
leave behind.
                        congressional oversight
    Question 1. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of the Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of the Congress?
    Response. Yes.

    Question 2. Do you agree, when asked, to give your personal views, 
even if those views differ from the Administration in power?
    Response. Yes.

    Question 3. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Chief of Engineers, United 
States Army?
    Response. Yes.

    Question 4. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Response. Yes.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. You already responded very satisfactorily, 
but not quite as thoroughly as we need to have on that.
    General Flowers. OK, sir.
    Senator Inhofe. This is another, totally unrelated issue. 
It is one that is creating a real serious problem for me, so 
this is parochial, but it's one that you will be dealing with.
    In northeastern Oklahoma we have--a lot of people aren't 
aware, Senator Lautenberg, that Oklahoma has more miles of 
fresh water shoreline than any of the 50 States. Did you know 
that?
    Senator Lautenberg. No.
    Senator Inhofe, Well, we do, and most of them are Corps 
lakes. The reason it is shoreline is that they are all dammed 
up from the rivers, lots of shoreline.
    Anyway, the largest one is called Grand Lake, and it was 
established by the Corps in 1941, and a couple years before 
that they established the Grand River Dam Authority to take 
care of the generation of electricity.
    Now, the problem that exists is that upstream from that, in 
a place called Ottawa County, they have had serious flooding 
problems. The GRDA, Grand River Dam Authority, has no control 
because under the regulations it is still the Corps that 
dictates the flow of the water. So they can't control this.
    There are some lawsuits that are pending, that have been 
filed, so we are in this dilemma where the GRDA is being sued, 
and yet we don't have any control over what we do. So we have 
asked for a study--I think it's in the WRDA bill--we have asked 
for a study by the Secretary, and I have talked to the 
Secretary about this; this is not a contentious thing, other 
than that we just have to get it resolved at some point, to see 
if in fact it is the Corps that is responsible for the damage, 
in which case they should be involved in the lawsuit also.
    One of the problems is venue. They talked about ``if the 
Corps is involved in this thing,'' that it's going to have to 
be in the Washington District, and for obvious reasons they'd 
rather not have it there.
    But I would only ask that if the study comes out and it 
clearly says--or there is persuasive evidence--that it is not 
the GRDA but it is the Corps that is responsible for these 
problems up there, that you would help us in addressing these 
things.
    Now, I know I'm not asking the right person because you're 
not going to be able to set the policy decisions. However, you 
will be involved in this thing, and I just wanted to get this 
out in the open right now and at least ask you if you would do 
all you could to cooperate with us, and then after the study 
comes out, if we determine that it is the Corps, to help us to 
resolve the problem.
    General Flowers. Yes, sir. If confirmed, I will do 
everything I can to cooperate with you on that one.
    Senator Inhofe. Well, I knew you would.
    That's really the extent of what I wanted to bring out, Mr. 
Chairman, and I appreciate Senator Baucus and Senator 
Lautenberg and you for allowing me to do that.
    Thank you, General Flowers. I look forward to enjoying my 
service with you.
    General Flowers. Thank you, sir.

             OPENING STATEMENT OF HON. BOB SMITH, 
          U.S. SENATOR FROM THE STATE OF NEW HAMPSHIRE

    Senator Smith. Thank you, Senator Inhofe.
    Now we will proceed to some opening comments, and then 
we'll hear from you, General Flowers.
    As you know, the hearing is on the nomination of Major 
General Robert B. Flowers to be the Chief of the Army Corps of 
Engineers. The nomination, of course, is referred to the Armed 
Services Committee, not to this one, so we will not be having a 
vote on your nomination, of course, but we do have jurisdiction 
over the Army Corps' Civil Works Program, which is why we've 
invited you to be here this morning.
    The Chief of Engineers has a lot of important 
responsibilities. He is a member of the Army General Staff. He 
reports to the Vice Chief of Staff on military matters for 
engineers assigned to line combat units.
    But the Chief also has important civil engineering 
responsibilities. He reports to two different Assistant 
Secretaries of the Army. He reports to the Assistant Secretary 
for Installations and Environment for his installation and real 
estate management responsibilities, and he reports to the 
Assistant Secretary for Civil Works for the management of the 
Corps' large Civil Works Programs. That's a lot of people to 
report to.
    Major General Flowers is currently dual-hatted, serving as 
Commanding General, U.S. Army Maneuver Support Center, and 
Commandant, U.S. Army Engineer School, both located at Fort 
Leonard Wood, MO.
    Before that, he previously served as the Commanding General 
of the U.S. Army Engineer Division, Lower Mississippi Valley, 
and the Assistant Division Commander of the 2nd Infantry 
Division, Eighth U.S. Army, Korea, and president of the 
Mississippi River Commission from 1995 to 1997. He also served 
as Theater Engineer in Desert Storm, in Somalia, and during the 
initial operations in the Balkans. He has had a very 
distinguished military career.
    He received his B.S. from Virginia Military Institute and 
M.S. from the University of Virginia. Both degrees are in civil 
engineering.
    I am pleased to report that General Flowers is very well 
qualified for his position, and we certainly look forward to 
your speedy confirmation, which I think will happen as soon as 
we finish this hearing.
    General you are going to assume your new duties in 
interesting times. There are a few very prominent articles that 
have been appearing in the local papers, and the challenges you 
face are great. Some believe that the Corps is a rogue agency, 
out of control; even the integrity of the Corps has been 
disputed. Others have alleged that the Corps is a victim of 
inappropriate political pressures, with various Federal 
agencies meddling in the Corps' professional judgments. There 
have also been well-documented and heavily reported 
communications failures between the Chief's office and that of 
the Assistant Secretary for Civil Works.
    But whether you believe the Corps is a rogue or a victim, 
or whether the charges are fair or unfair, I think it is 
largely going to fall on you to restore the reputation, if you 
can assume that the reputation needs to be restored. That 
doesn't necessarily mean that every article we read is 
accurate, obviously.
    This committee is concerned, though, about the operation of 
the Corps. A few months ago, along with Senator Warner, the 
chairman of the Armed Services Committee and Senator Stevens 
and myself, we initiated an investigation into some of the 
allegations regarding the Corps' operations. As of this time we 
have not announced anything publicly on that. I want to do that 
right now, this morning.
    There were two prongs to the inquiry. First, we examined 
all the allegations that the executive branch officials brought 
inappropriate political pressure that affected the Corps' 
professional judgment. We looked into that.
    Second, we examined the basis and need for the so-called 
``Civil Works Program Management Reforms,'' announced by Army 
Secretary Caldera last spring.
    The Corps and the Army provided us with volumes of 
documents in response to our questions. They were very 
accommodating in that. After a careful evaluation of all the 
material--I want to make it very clear--we did not find 
evidence of illegality, nor did we find evidence of 
inappropriate political influence on the Corps' professional 
judgment. The material does raise some questions that may be 
areas of future committee oversight in terms of, perhaps, some 
e-mails and correspondence and things that perhaps might be a 
bit embarrassing, but there's a big difference between 
embarrassing memos and inappropriate or illegal activity. We 
found none.
    Similarly, the material provided to the committee does not 
establish the need for any significant Civil Works management 
reforms. The material did reveal that there was a systematic 
communications and management breakdown between the Chief and 
the Office of Assistant Secretary; many of these internal 
communications, as I said, are embarrassing, and they do 
demonstrate, perhaps, a lack of judgment, and probably never 
anticipated that congressional investigators would be reading 
through their e-mails.
    General Flowers has provided written response to questions, 
which will be made part of the record, that indicate that he 
clearly understands the chain of command for his Civil Works 
responsibility.
    [The referenced response follows:]
    Senator Smith. I don't want to get ahead of your testimony, 
General, but I want to say that you state very clearly,

    The supervisory duties of the Assistant Secretary of the 
Army for Civil Works extend to all Civil Works functions of the 
Army, including those relating to conservation and development 
of water resources and support for other programs. The Chief of 
Engineers reports to the Assistant Secretary on Civil Works 
functions.

    That's a very definitive statement. I think it should put 
to rest any rush to judgment that anyone might make regarding 
the chain of command. It is my view that we should let General 
Flowers assume his duties for a time before beginning to 
consider whether or not sweeping management reforms are 
necessary. I made that very clear, directly to Secretary 
Caldera. We should also wait to see if the new political 
leadership that will come after the elections--whomever it is--
finds that the reforms are necessary.
    I can already read the headlines: ``Kill Corps Cronies, 
Stop the Reforms.'' The press can write that if they want to. I 
have been the victim of adverse headlines before, but that's 
not the message that I want the nominee to take away from this 
hearing, which is why I am bringing it up right now.
    You have the respect and support of this committee and the 
Senate.
    General there have been legitimate policy issues raised on 
these topics, like the integrity of the Corps' economic 
analyses and the future role of the Corps. The issues should be 
examined and, if necessary, fixed, and the committee will be 
working with you and watching closely to do that.
    The committee also will not tolerate the gridlock that has 
characterized the relationship between the Chief's office and 
the Assistant Secretary's office. On the Civil Works Program it 
is crystal clear, as you indicated, that you work for the 
Assistant Secretary. It is also crystal clear that you 
understand that. My charge to you is to make that relationship 
work, which I know that you have the capability to do.
    Later today Senators Warner, Stevens, and myself will send 
a letter to Secretary Caldera. The letter is drafted and signed 
by two of us; on the other, the content of the letter has been 
approved and the signature will be received before the end of 
the day. We will make that available once it is delivered. The 
letter states four major principles:

    First, based on our review of the documents provided and 
additional discussions between committee staff and Corps of 
Engineers personnel with respect to the allegations, we have 
concluded that while some of the events described in the 
documents reflect poor judgment on the part of a number of 
officials at the Corps, in the Assistant Secretary's office, 
and elsewhere in the executive branch, there is not sufficient 
evidence of inappropriate or illegal conduct to warrant further 
investigation by the committee.
    Second, however, based on our evaluation of the documents, 
we also believe that any significant management reforms are 
unnecessary at this time.
    Third, it is evident from the documents that individual 
personalities significantly contributed to the tension and lack 
of trust between the leadership of the Corps and the civilian 
leadership of the Office of the Assistant Secretary. It is the 
committee's hope that better communication and new leadership 
will help address this tension and lack of trust.
    And finally, we believe that further consideration of any 
management reforms should be deferred, if any reforms take 
place, until the new Chief is confirmed and other new key 
personnel are in place.

    I intend to include a copy of that letter in the record of 
the hearing.
    [A copy of the referenced letter follows:]

                                               U.S. Senate,
                               Washington, DC., September 13, 2000.
Hon. William S. Cohen, Secretary,
Department of Defense,
Washington, DC.
    Dear Secretary Cohen: On April 5, 2000, we wrote to you expressing 
our concerns regarding the management reforms for the civil works 
function of the Army Corps of Engineers that were announced by 
Secretary Caldera. At that time, we requested that you suspend any 
implementation of the proposed reforms pending our investigation of the 
reforms and the circumstances that led up to their issuance. We are 
writing to inform you that we have completed our investigation and have 
determined that no further Congressional action is warranted at this 
time. However, we do not find that justification exists to warrant 
implementation of these proposed reforms at this time.
    As you know, our investigation was prompted by the announcement of 
Secretary Caldera's proposed management reforms for the Corps of 
Engineers. Our concerns stemmed, in part, from the fact that no 
justification for the reforms was provided to the Congress before their 
announcement on March 30. In addition to the substance of the proposed 
reforms, we were concerned also about the timing of the announcement. 
The proposed reforms were released on the heels of a series of articles 
in the Washington Post raising serious concerns about the objectivity 
of the U.S. Army Corps of Engineers in recommending for authorization 
water resources projects to the Congress. Allegations were also made 
that executive branch officials had improperly interfered with Corps 
activities on several significant projects. The most serious 
allegations charged the Corps of Engineers with improperly calculating 
the economic benefits of a proposal to justify the expansion of locks 
on the Mississippi River to facilitate grain transportation. We 
understand that this matter has been referred to the Inspector General 
of the Department of Defense. The Inspector General's final report is 
not yet available nor has the Inspector General made any 
recommendations to date.
    In order to evaluate the basis for Secretary Caldera's proposed 
management 
reforms and other allegations of inappropriate political interference 
with Corps activities, the three Senate committees of jurisdiction--the 
Committee on Armed Services, the Committee on Environment and Public 
Works, and the Committee on Appropriations--requested that Lieutenant 
General Ballard, the former Chief of the Corps of Engineers, provide a 
number of relevant documents and respond to a series of written 
questions. In particular, the committees requested information that 
would support, or refute, the assertion that there was a breakdown in 
the execution of the Civil Works Program. The committees also requested 
specific examples of circumstances where there was allegedly 
inappropriate political interference by executive branch officials in 
the professional judgments of the Corps of Engineers. General Ballard 
provided a number of documents and responses to the committees' 
questions in a timely manner, and we have now had an opportunity to 
review those documents in detail. In addition, on August 31, Secretary 
Caldera provided the committees with a set of documents setting forth 
the legal basis for his proposed management reforms and explaining the 
rationale behind them.
    Based on our review of the documents provided, and additional 
discussions between committee staff and Corps of Engineers personnel 
with respect to the allegations, we have concluded that while some of 
the events described in the documents reflect poor judgment by a number 
of officials at the Corps, in the Assistant Secretary's office, and 
elsewhere in the Executive branch, there is not sufficient evidence of 
inappropriate or illegal conduct to warrant further investigation by 
the committees at this time. However, based on our evaluation of the 
documents, we also believe that it is unnecessary to implement any 
significant management reforms at this time. It is evident from the 
documents that individual personalities significantly contributed to 
the tension and lack of trust between the military leadership of the 
Army Corps of Engineers and the civilian leadership of the office of 
the Assistant Secretary (Civil Works). It is the committees' hope that 
better communication and new leadership will help address this tension 
and lack of trust. At a minimum, we strongly believe that further 
consideration of any management reforms should be deferred until the 
new Chief of Engineers is confirmed and has an opportunity to fully 
assess the situation.
    In conclusion, this letter confirms that the committees' inquiry 
into the basis and need for Secretary Caldera's proposed management 
reforms is closed. The committees will not need any further information 
from the Secretary of the Army. However, based on our review of the 
materials provided, we also believe that there is no justification for 
the proposed reforms at this time. It is our strongly held view, as 
Chairmen of the committees of Jurisdiction, that the implementation of 
any management reforms relating to the Army Corps of Engineers and the 
Assistant Secretary (Civil Works) must be deferred until Congress can 
receive the assessment of the new Chief of Engineers and can review the 
findings and recommendations of the Department of Defense Inspector 
General. We strongly urge you to consider these views seriously.
    Thank you and your staff for your cooperation in this matter.
            Sincerely,
                                   Ted Stevens, Chairman,
                                             Committee on 
                                               Appropriations.
                                   John W. Warner, Chairman,
                                             Committee on Armed 
                                               Services.
                                   Bob Smith, Chairman,
                                             Committee on Environment 
                                               and Public Works.

    Senator Smith. I am proud of the Army Corps and a supporter 
of the Army Corps. I respect what the Army Corps has done for 
America over the years. Where mistakes have been made, they 
were made because we directed you, for the most part, to do 
something--such as the Everglades, which turned out to be 
wrong.
    I think you have a challenge ahead of you, but I think you 
are ready, and I look forward to hearing your testimony.
    [The prepared statement of Senator Smith follows:]
   Statement of Senator Robert Smith, U.S. Senator from the State of 
                             New Hampshire
    Good morning. Today's hearing is on the nomination of Major General 
Robert B. Flowers to be the Chief of Engineers, the Department of the 
Army. This nomination was referred to the Armed Services Committee. 
There will be no vote here in the Environment and Public Works 
Committee to report Major General Flowers' nomination. This committee 
does have jurisdiction over the Army Corp's Civil Works Program, that 
is why we invited the General here today.
    The Chief of Engineers has several important responsibilities. He 
is a member of the Army General Staff, reporting to the Vice Chief of 
Staff on military matters for engineers assigned to line combat units. 
The Chief also has important civil engineering responsibilities. He 
reports to two different Assistant Secretaries of the Army. He reports 
to the Assistant Secretary (Installations and Environment) for his 
installation and real estate management responsibilities. He reports to 
the Assistant Secretary (Civil Works) for the management of the Corp's 
large civil works program. Major General Flowers is currently ``dual 
hatted,'' serving as Commanding General, United States Army Maneuver 
Support Center and Commandant, United States Army Engineer School, both 
located at Fort Leonard Wood. He previously served as the Commanding 
General, United States Army Engineer Division, Lower Mississippi 
Valley; Assistant Division Commander, 2d Infantry Division, Eighth 
United States Army, Korea; and President of the Mississippi River 
Commission from 1995-1997. He also served as Theater Engineer in Desert 
Storm, in Somalia, and during the initial operations in the Balkans. He 
received a received his B.S. from Virginia Military Institute and M.S. 
from the University of Virginia. Both degrees are in Civil Engineering. 
I am pleased to report that Major General Flowers is well qualified for 
his position.
    General Flowers, you will assume your new duties in interesting 
times, and the challenges you face are great. Some believe that the 
Corps is a rogue agency, out of control. The integrity of the Corps' 
analyses has been disputed. Others have alleged that the Corps is a 
victim of inappropriate political pressures, with various Federal 
agencies meddling in the Corps' professional judgments. There also have 
been well-documented, and heavily reported, communication failures 
between the Chief's office and that of the Assistant Secretary for 
Civil Works. Whether you believe the Corps is a rogue or a victim, and 
whether the charges are fair or not, it will largely fall to you to 
restore the reputation of the Army Corps of Engineers. This committee 
is concerned about the operation of the Corps of Engineers. A few 
months ago, along with Senator Warner, the Chairmen of the Armed 
Services Committee, and Senator Stevens, the chairman of the 
Appropriations Committee, I initiated an investigation into some of the 
allegations regarding Corps operations.
    There were two prongs to the inquiry. First, we examined 
allegations that executive branch officials brought inappropriate 
political pressure that affected the Corps' professional judgments. 
Second, we examined the basis and need for the so-called Civil Works 
Program Management Reforms announced by Army Secretary Caldera last 
Spring. The Corps and Army provided us with volumes of documents in 
response to our questions. After a careful evaluation of the material, 
we did not find evidence of illegality, or of inappropriate political 
influence on the Corps' professional judgments. The material does raise 
some questions that may be areas of future committee oversight 
activity. Similarly, the material provided to the committee does not 
establish the need for any significant Civil Works Management reforms. 
The material did reveal that there was a systemic communications and 
management breakdown between the Chief of Engineers office, and the 
Office of the Assistant Secretary. Many of these internal 
communications are embarrassing and demonstrate a lack of judgment by 
the participants, who probably never anticipated Congressional 
investigators reading through their e-mails. Major General Flowers has 
provided written responses to questions, which will be made part of the 
record, that indicate that he clearly understands the chain of command 
for his Civil Works responsibilities. General Flowers states that: The 
Supervisory duties of the Assistant Secretary of the Army (Civil Works) 
extend to all civil works functions of the Army, including those 
relating to conservation and development of water resources and the 
support for others program. The Chief of Engineers reports to the 
Assistant Secretary on Civil Works Functions.
    That is a definitive statement, and I think it should put to rest 
any rush to make administrative changes to ``strengthen'' civilian 
control over the civil works program, at least until General Flowers is 
well settled in his new job.
    It is my view that we should let General Flowers assume his duties 
for a time before again considering whether or not any sweeping 
management reforms are necessary. We should also wait to see if the new 
political leadership that will come after the elections, no matter who 
wins, finds that reforms are necessary. I can already read the 
headlines ``Hill Corps Cronies Stop The Reforms.'' The press can write 
that if they want to, but that is not the message I want the nominee to 
take away from the hearing.
    General, there have been legitimate policy issues raised on topics 
like the integrity of Corps' economic analyses, and the future role of 
the Corps. The issues should be examined and, if necessary, fixed. The 
committee will watch this closely. The committee also will not tolerate 
the gridlock that has characterized the relationship between the 
Chief's office and the Assistant Secretary's office. On the Civil Works 
Program, it is crystal clear you work for Assistant Secretary. It is 
also crystal clear you understand it. My charge to you is to make that 
relationship work.
    Later today, Senators Warner, Stevens and I will send a letter to 
Secretary Caldera. We will make that available once it is delivered. 
The letters states that:
    1. Based on our review of the documents provided, and additional 
discussions between committee staff and Corps of Engineers personnel 
with respect to the allegations, we have concluded that while some of 
the events described in the documents reflect poor judgment on the 
parts of a number of officials at the Corps, in the Assistant 
Secretary's office, and elsewhere in the Executive branch, there is not 
sufficient evidence of inappropriate or illegal conduct to warrant 
further investigation by the committees at this time.
    2. However, based on our evaluation of the documents, we also 
believe that any significant management reforms are unnecessary at this 
time.
    3. It is evident from the documents that individual personalities 
significantly contributed to the tension and lack of trust between the 
military leadership of the Army Corps of Engineers and the civilian 
leadership of the office of the Assistant Secretary (Civil Works). It 
is the committees' hope that better communication and new leadership 
will help address this tension and lack of trust.
    4. At a minimum, we strongly believe that further consideration of 
any management reforms should be deferred until the new Chief of 
Engineers is confirmed and other new key personnel are in place.
    I will include a copy of that letter in the record of this hearing. 
I am proud of the Army Corps and everything it has accomplished for the 
nation. Fairly or not, the Corps' reputation has been tarnished lately. 
I think you have quite a challenge ahead of you, but I know you are 
ready for the task.''

    Senator Baucus.

             OPENING STATEMENT OF HON. MAX BAUCUS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. Thank you, Mr. Chairman.
    General Bowers, welcome.
    General Flowers. Thank you, sir.
    Senator Baucus. Good luck.
    [Laughter.]
    General Flowers. Thank you.
    Senator Baucus. Mr. Chairman and members of the committee, 
this nomination comes at a time, as you have indicated, Mr. 
Chairman, when the Corps is facing a great deal of public 
scrutiny. There has been criticism of the way some economic and 
environmental analyses are being done, or in some cases, are 
not being done. There are some who feel the time has come for 
sweeping reforms in the Corps; others feel the status quo is 
just fine.
    My own view is that some changes need to be made in order 
to justify the trust that this committee and the American 
people must have in the work of the Corps. This committee 
depends on the professionalism of the Corps, and particularly, 
in the integrity of the Chief of Engineers' reports, when we 
consider authorizing Corps projects.
    Mr. Chairman, I will have some questions later for General 
Flowers, but my main point is that the analyses that we are 
relying on here in the Congress must be the best that can be.
    General you have had a very distinguished 31-year career, 
some of it in very challenging assignments. The position to 
which the President has nominated you may well be your most 
challenging. There will be numerous legal, technical, and 
policy issues to confront, but I hope that you will also 
address the morale of your employees, especially in light of 
the ongoing controversies.
    I know that Corps employees, both military and civilian, 
want to do a good job, to take pride in their efforts. In my 
State, for instance, you have some very fine staff; the manager 
of the Fort Peck Lake is a perfect example. He's aces. He works 
closely with everyone in the community. They trust him 
implicitly. He does a great job at the facility. He is giving 
the Corps a very good name.
    In conclusion, General, I look forward to hearing from you, 
and I also want you to know that you should feel free to call 
upon this committee and its members if you need any 
assistance--or if you need any free advice--as you assume your 
new role. Good luck.
    General Flowers. Thank you, sir.
    Senator Smith. Senator Voinovich.

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Good morning.
    General Flowers. Good morning, sir.
    Senator Voinovich. First of all, I want to thank you for 
visiting with me last week. I enjoyed that. Hopefully we will 
have a lot more opportunities to visit with each other.
    Mr. Chairman, it is nice to know that we have someone 
before us who has had some roots in Ohio. It makes me feel very 
good.
    I'd like to thank you, General Flowers, for participating 
in this hearing in anticipation of receiving your third star 
and command as Chief of Engineers for a 4-year period. It's a 
long period of time. By the way, I think we ought to do that in 
all the military, that you all ought to have 4 years and not 3, 
as it is in some of the other branches.
    This has been a difficult year, as you know, for the Corps 
of Engineers. It is highlighted again this week in a second 
series of articles in the Washington Post. Many aspects of the 
Corps' programs are the center of controversy. I was talking to 
my wife about it this morning and I told her you were coming 
in, and she said, ``Anyone that read those articles has got to 
be upset.'' We all realize sometimes that newspapers exaggerate 
some things, but if you read all those articles, you know there 
are some real serious problems that need to be addressed by the 
Army Corps of Engineers.
    There are concerns about the environmental impacts of 
certain projects; charges the Corps' evaluations of projects 
are not objective; very public and acrimonious arguments about 
the respective roles of the Chief of Engineers and the 
Assistant Secretary of the Army for Civil Works; debates about 
the appropriate mission of the Corps and its growth; arguments 
about the proper role of Congress versus the executive branch 
in directing and overseeing the Corps' programs.
    This is a watershed, in fact, as far as I am concerned, in 
terms of the Army Corps of Engineers, and I don't believe that 
at this stage of the game we can sweep some of this stuff under 
the rug and say that we're just going to let it go by the 
boards. We need to get at it. We need to take it on head-on, 
and we need to use this as an opportunity to restore people's 
confidence in the Corps of Engineers.
    I am personally concerned about these allegations. As the 
chairman of the Transportation and Infrastructure Subcommittee, 
which has oversight over the Civil Works Program of the Corps, 
I have met with your predecessor and the Assistant Secretary 
for Civil Works and the Secretary of the Army and extensively 
discussed these concerns and listened to their assessment of 
the challenges facing the Corps. I wish you had been privy to 
those meetings; it would have been very interesting for your 
background.
    What is very clear to me through all of this is that 
national water resource needs are real and growing. We need to 
continue to develop and modernize our water transportation 
system to compete in an increasingly global economy. Flooding 
remains a threat to many communities. The Corps infrastructure 
is aging and facing the need for critical maintenance, 
rehabilitation and replacement, and the expertise of the Corps 
is needed to help restore the environment.
    While these needs grow, our national investment continues 
to decline. In constant dollar terms, our Federal investment in 
water resource development is less than one-half of its level 
in 1960. We have one of these bills, the WRDA bill, kicking 
around here that is $3 billion that some want Congress to pass. 
When you think of the unmet needs that we have, just looking at 
the WRDA bill, $38 billion in projects that have either 
received design or some construction money that are sitting 
there and nothing has been done about them. When you think 
about the fact that you have $450 million in deferred critical 
maintenance of existing projects--these are real, significant 
challenges for the Corps of Engineers and for this country.
    I would like to say this, that I think it's very important 
that you first investigate and define the problems facing the 
Corps, the challenges and the opportunities, and that would 
include the ongoing investigation of the Upper Mississippi 
River, as well as many of the problems highlighted in the 
recent Washington Post series. We can't just discount those and 
say, ``Well, that's just another newspaper article.'' They've 
done a good job on this, they have, and there's some serious 
stuff that needs to be addressed.
    As I mentioned to you in my office this week, most of these 
problems, I think, can be handled by you, by the current and 
the future Administration, managerially. There a lot of people 
who say, ``Well, we have to start having hearings.'' Most of 
this stuff can be worked out with good management and good 
interpersonal relationships between you and whoever it is that 
you're going to be working with, and I certainly learned that 
when I was Governor of Ohio and Commander in Chief of the Ohio 
National Guard, and with General Alexander. He had his job to 
do, but it was that relationship that made it either successful 
or not successful.
    I also think it's important that you develop a strategic 
plan for addressing the many challenges facing the Corps as its 
new Chief, that you start thinking about that now.
    Last but not least, I look forward to working with you in 
any way that I can on legislative matters that you might feel 
would make it easier for you to get the job done for the Corps 
and for our Nation, and I am pleased that you are interested in 
taking this on at a difficult time.
    Senator Lautenberg. Mr. Chairman.
    Senator Smith. Senator Lautenberg.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you, Mr. Chairman.
    General Flowers, we are pleased to have someone of your 
stature and your experience take this assignment, and you take 
it to a Corps that is sometimes questioned, but essential to 
our country's pursuance of its interests, its economy, its 
quality of life. And let it not be forgotten.
    We are concerned in the New York-New Jersey Harbor about 
the dredging of the harbor. We want to get down to 50 feet. The 
Corps, in my view, is not only the best but the only place that 
we can really go to get this important job done.
    When I look at dredging, to me it is no different than 
highway construction. If the trucks get heavier, we change the 
material, change the dimension, change the structure of the 
highways. We can't say that ``Here, now, because they're 
building bigger ships, we're going to just lose that 
business.'' It's such an important part of the various port 
economies around the country.
    And the Corps has the assignment of keeping us up-to-date 
in the 21st century, and I expect that you can do it very well.
    So there are things--I have a formal text which I would ask 
to be inserted in the record, Mr. Chairman, but we are pleased 
to have you take this assignment, and I will fully support your 
confirmation and look forward in the short time that I have 
remaining in this organization to working with you. I will not. 
I will not, however, refrain from calling upon you from either 
the chairman or other friends that I have here, and I thank you 
very much for taking on the responsibility.
    General Flowers. Thank you, sir.
    [The prepared statement of Senator Lautenberg follows:]
 Statement of Senator Frank Lautenberg, U.S. Senator from the State of 
                               New Jersey
    Good morning Mr. Chairman, members of the committee and General 
Flowers. I am pleased to have someone of General Flowers experience and 
stature take over as Chief of the Army Corps of Engineers, and I am 
looking forward to hearing him present his vision for the Army Corps of 
Engineers.
    I was particularly pleased to read in the information provided to 
the Senate Armed Services Committee that General Flowers believes the 
Port of New York and New Jersey 50-foot deepening project to be one of 
the most ``prominent'' projects for the nation's navigation system.
    The Port of New York and New Jersey is extremely important to the 
region and the nation. The 50-foot project for the Port of New York and 
New Jersey is the largest project anticipated for our region in the 
history of the Port. It is well worth the investment, Mr. Chairman.
    Port projects can be compared with highway construction. When 
trucks became larger and heavier, we improved the highway system to 
accommodate the new truck standards. We need to do the same for 
navigation. Now we need to deepen our channels to accommodate the new 
ship standards.
    Improving the nation's infrastructure also helps our economy. Up-
to-date infrastructure allows for easier movement of goods, helping 
manufacturers get raw materials and to ship finished goods to market.
    The Port of New York and New Jersey is not a local port, but the 
Nation's Port. It is located in the center of the largest regional 
market in the nation. It is the largest container port on the East 
Coast and the third largest in the United States and serves 34 percent 
of the population of this nation.
    I was also pleased to learn that General Flowers supports so-called 
``quality-of-life'' initiatives that make life better for our citizens. 
Although General Flowers listed only military quality of life projects, 
I would argue that shore protection and flood control projects are also 
``quality of life'' initiatives.
    Completed flood control and shore protection projects let property 
owners in flood prone and coastal areas rest much easier. If designed 
properly, they can significantly improve the overall quality of life in 
many communities.
    On the other hand, I hope that General Flowers will ensure that 
structural solutions to flooding do not become the first ones we pull 
off of the shelf simply because they are the ones with which the Army 
Corps has the most experience.
    We have seen how some of the traditional approaches to prevent 
flooding take too heavy a toll on the environment or simply encourage 
additional development. I'm pleased that this Administration is moving 
toward non-structural alternatives through the Challenge 21 Initiative, 
and I urge General Flowers to continue these efforts.
    I would also argue that environmental restoration projects are 
``quality of life'' projects for our environment as well as our 
citizens. One of these projects, which the Corps has designed is the 
restoration of Lower Cape May Meadows in New Jersey, which will improve 
a vital resting area along the Atlantic flyway as well as protect fish 
and wildlife habitat. The Corps planned projects in Barnegat Bay will 
restore the habitat for many species of juvenile and harvestable fish 
and shellfish. And the New York Harbor Estuary program will reduce 
pollution and protect the natural ecosystem.
    Finally, I hope that General Flowers will pay close attention to 
improving the economic analyses that are prepared by the Corps to 
justify projects before they can go forward. I believe that one of the 
ways this can be done is to develop stronger civilian control over the 
operations of this agency.
    I am very interested in hearing how General Flowers hopes to work 
more closely with the Secretary of the Army and the Assistant Secretary 
for Civil Works to ensure that only projects that meet the most 
stringent benefit-cost requirements are approved.
    Thank you Mr. Chairman.

    Senator Smith. Senator Lautenberg's full statement will be 
made a part of the record, and thank you, Senator Lautenberg.
    General Flowers, the floor is yours to make any points that 
you wish to make before the committee.

   STATEMENT OF MAJOR GENERAL ROBERT B. FLOWERS, U.S. ARMY, 
NOMINATED BY THE PRESIDENT TO BE CHIEF OF ENGINEERS, DEPARTMENT 
                          OF THE ARMY

    General Flowers. Thank you, Mr. Chairman and members of the 
committee. I am deeply honored to appear before you today as 
the nominee to be Chief of Engineers of the Army Corps of 
Engineers. I want to thank the President and the Secretary of 
the Army for giving me this extraordinary opportunity to 
continue to serve the men and women of this great Nation. If 
confirmed, I will lead the Army Corps of Engineers into the 
21st century with great pride.
    The U.S. Army Corps of Engineers has a long and proud 
tradition of providing invaluable engineering and construction 
service to the Nation in peacetime and in war. Its military 
mission includes providing for the defense of American soldiers 
and furnishing needed housing and facilities for service 
members and their families. Its civil works mission--fighting 
floods and developing, preserving, and protecting critical 
water resources--is equally vital to the Nation's welfare. The 
Corps is a dynamic organization that has continually evolved to 
meet the changing needs of the Nation. From building forts, 
mapping the uncharted regions of developing America, and 
constructing flood control and navigation projects to pursuing 
environmental restoration projects, the Corps of Engineers has 
responded to the changing needs of America.
    If I am confirmed as the Chief of Engineers, I intend to 
establish a clear direction of leadership for the Corps as it 
performs its 
important civil works and military missions. That direction 
must target the Nation's critical needs and be fully supported 
by the American people. It must also ensure that Corps 
employees; have opportunities to achieve their career goals and 
make contributions that are acknowledged and appreciated.
    Historically, the Nation's rich and abundant water and 
related land resources provided the foundation for the 
successful development of America. Since the beginning of our 
Nation, the Corps of Engineers has played a pivotal role in the 
stewardship of these important resources, initially by 
developing our Nation's water resources, and later by restoring 
and protecting the environment. The Corps has improved the 
quality of life by making America more prosperous, safe, and 
secure. The Corps must remain flexible in order to continue to 
make important contributions to the Nation and respond to 
America's contemporary needs.
    Communities nationwide rely on the Corps to reduce flood 
damages, facilitate navigation, provide needed supplies of 
water and power, and protect and restore our aquatic resources. 
The projects approved by Congress represent a sound investment 
in the Nation's security, economic future, and environmental 
stability. The Corps' greatest challenge is to find sustainable 
ways to strengthen the Nation's economy while protecting and 
restoring our unique water and related land resources for the 
benefit of future generations.
    The Corps faces the demanding tasks of maintaining its vast 
inventory of existing public improvements and pursuing new 
projects that develop, conserve, preserve, and protect our 
aquatic resources. It must provide for a system of ports and 
inland waterways that will efficiently transport goods. It also 
must find creative ways to prevent or reduce flood damages. 
Finally, more and more communities are looking to the Corps to 
provide adequate sources of potable water and to find new ways 
to manage wastewater disposal in order to provide for the 
economic growth and the quality of life that people deserve.
    I believe that the Corps must carry out these varied 
missions in an environmentally responsible manner. The Corps 
has a long record of coordinating its missions and planning its 
projects in compliance with the requirements of the National 
Environmental Policy Act and other environmental laws, which 
has led to better and more environmentally sensitive projects. 
If I am confirmed as the Chief of Engineers, I will ensure that 
all projects are planned and constructed in a manner that 
avoids or minimizes undesirable environmental impacts.
    The challenges the Corps faces are complex and require 
difficult decisions to be made. These decisions must take into 
account the requirements of existing law and fiscal 
constraints. They also involve a balancing of diverse 
interests. The proper reconciliation of these interests demands 
open communication. Therefore, I will engage in a cooperative 
dialog with Congress, other Federal agencies, States, tribes, 
local governments, and other interested parties in order to 
find constructive solutions to our Nation's problems.
    During the course of this dialog, I am committed to 
maintaining the integrity of the Corps of Engineers and to 
making decisions that deserve the full confidence of the 
American public. If I am confirmed as the Chief of Engineers, I 
will work cooperatively with all interests and thoroughly 
consider all points of view. The openness of these discussions 
will ensure that Corps decisions are objective and are broadly 
understood and supported.
    If I am confirmed as the Chief of Engineers, I expect to 
work closely with the Administration and Congress as I 
discharge my leadership duties. I am confident that working in 
concert, we can marshal the great capabilities of the Corps in 
a way that maximizes the benefits to the public because we 
share the common goal of providing for the Nation's well-being.
    Should I be confirmed, I look forward to working with this 
committee in addressing any issues that may arise during my 
tenure.
    Again, I appreciate the opportunity to appear before you 
today, and would be pleased to answer any questions you may 
have.
    Senator Smith. Thank you very much, General Flowers. Let me 
just start with a couple questions.
    General you heard the comments that I made in the opening 
in reference to the letter. In your professional and personal 
view, is there any ambiguity at all in the reporting 
relationship between the Army Chief of Engineers and the 
Assistant Secretary for Civil Works?
    General Flowers. No, sir.
    Senator Smith. Are there any conditions under which you 
feel it would be appropriate to withhold information from your 
superior, the Assistant Secretary?
    General Flowers. Sir, I can't think of any.
    Senator Smith. I don't want to put you on the spot, but you 
know we are going to give you a third star for the job, so let 
me ask you this. I met with the Secretary of the Army just the 
other day. He told me that the reason civil works management 
reforms are still necessary is because the relationship--the 
reporting relationship--between the Chief of Engineers and the 
Assistant Secretary may have been exploited somewhat, perhaps 
on both sides. So he just said there is no ambiguity in your 
reporting.
    Is there really any need, then, to move forward on reforms 
at this time, based on your understanding of that relationship?
    General Flowers. Sir, there are people involved with this 
in the Congress and in the Administration that could probably 
answer that question a lot better than I can, who have had a 
lot of experience with this.
    I am prepared to work--it is very clear in my mind who I 
work for. In military matters, I report through the Vice Chief 
of Staff of the Army to the Chief of Staff, and then to the 
Secretary of the Army. For Civil Works and Installations and 
Environment, I report to the Assistant Secretaries of the Army, 
through them to the Secretary of the Army. That's pretty clear 
to me.
    I think I would like the opportunity, before I give you a 
great answer to that question, to work for a while and work at 
these relationships. In my mind right now, I see no ambiguity.
    Senator Smith. Assuming you are confirmed, how much time do 
you anticipate it would take you to settle in to where you 
could make recommendations, both to the Congress and to the 
policy folks?
    General Flowers. Sir, I think this is a very important 
matter, and it's the first thing that I have to see to. I would 
say probably within 30 to 60 days.
    Senator Smith. All right. Thank you.
    Senator Baucus.
    Senator Baucus. Thanks, Mr. Chairman.
    General this committee has often received testimony that 
the Corps often fails to fully mitigate environmental impacts 
of their projects, or that the mitigation sometimes doesn't 
produce the benefits expected. For example, there is a 30,000-
acre backlog of promised uncompleted mitigation within the 
Vicksburg District alone. This backlog is about 66 percent of 
the required mitigation within the District.
    As follow-up testimony by Dr. Westphal before this 
committee earlier this summer, I requested information on the 
Corps-wide backlog of mitigation. I am still waiting for those 
results.
    What is your understanding of the Corps' performance when 
it comes to mitigating the impacts of projects? For example, 
our data available on the amount of mitigation required from 
the Corps over, say, the last 10 years, and how much of this 
has been successfully completed?
    General Flowers. Sir, I would like to take the specifics of 
the answer to your question for the record and provide that to 
you. I don't have them at hand right now.
    [Information supplied follows:]

    For those projects that were completed or underway in the last 10 
years, mitigation has to the greatest extent been completed. This is 
due to Section 906 of WRDA 86 which enacted the requirement to mitigate 
prior to or concurrent with construction of a project. Project and 
mitigation completion, therefore, results from an orchestrated and 
simultaneously implemented action.

    General Flowers. I know as a Division Engineer, we worked 
this problem very hard. If confirmed, you have my commitment 
that I will look into this matter and I will work the 
mitigation piece very hard.
    Senator Baucus. I appreciate that.
    Also, assuming the Vicksburg figures are accurate, does 
that indicate there is a problem? Or does that----
    General Flowers. Sir, I think those figures are accurate. 
It indicates something that we have to see to, yes, sir.
    Senator Baucus. All right.
    Have you thought of what changes, if any, are in order 
related to how the Corps approaches mitigation obligations?
    General Flowers. Sir, I would like to take that one for the 
record as well.
    [Information supplied follows:]

    I believe the Corps needs to continue to ensure that the valuable 
and significant resources its projects may affect are considered early 
and throughout the planning process so that wherever possible, 
avoidance of these resources can be accommodated through the planning 
process. In those instances after the Corps has done everything 
reasonable to avoid or minimize those impacts, compensatory mitigation 
should be implemented in a timely and responsible manner.
    In an effort to get a better handle on past and present mitigation 
activities, the Corps is currently developing an environmental 
database. With this database the Corps will be able to identify who has 
worked on similar types of projects, what they did, how impacts were 
avoided or minimized, and what, if any, compensatory mitigation are 
needed. A remaining area that needs to be further explored is 
``mitigation success.'' Follow-up studies to determine what worked and 
what did not would be beneficial to the environment and also useful in 
developing more cost-effective mitigation plans in the future.

    General Flowers. One thing that I must do when I get on 
board is to establish a strategic plan and a plan for the 
organization, and I think that has to be a part of it.
    Senator Baucus. There have been several proposals offered 
before this committee with respect to mitigation. One is that 
the Corps be held to the same mitigation standards as a private 
developer; as you know, a private developer has to replace an 
acre of habitat for each acre impacted by a project. That's the 
private requirement. Should the Corps be held to the same 
requirement?
    General Flowers. Sir, I would also like to take that one 
for the record. I have to give more thought to that before I am 
able to give you a proper response.
    [Information supplied follows:]

    Acre for acre mitigation is not a good standard. Under this 
scenario, you could replace an acre of high-quality wetland with an 
acre of low-quality wetland. This would provide a net result of losses 
of environmental outputs associated with our actions: a situation we 
want to avoid wherever possible. What must be addressed is the 
physical/chemical-biological value provided by the impacted wetland (or 
riparian area, etc.), not just the physical boundaries of the area 
impacted. Determination of impacts, by acreage dimensions alone, can be 
deceiving. The Corps approach to looking at habitat value is consistent 
with the policies of the U.S. Fish and Wildlife Service (as described 
in FR/vol. 46., No. 15/Friday, January 23, 1981). All of their 
mitigation goals are stated with regard to habitat value. Accordingly, 
from an environmental perspective, the Corps' approach of replacing 
habitat value is more reflective of losses/impacts than an acre for 
acre approach.

    Senator Baucus. I can tell we're going to have a follow-up 
hearing here pretty soon.
    [Laughter.]
    Senator Baucus. Another question along the same line. The 
proposal was offered to this committee that the Corps should 
not recommend a project unless it can be shown that successful, 
cost-
effective mitigation of the project's impacts will be 
performed.
    General Flowers. Sir, that sounds pretty good to me.
    Senator Baucus. Do you think that's a good idea?
    General Flowers. I do.
    Senator Baucus. And your reaction to the proposal that 
along with construction funding, project budgets should include 
funding for mitigation in order to ensure that there will be 
money to complete the required mitigation?
    General Flowers. Sir, I will work to do that.
    Senator Baucus. Mr. Chairman, at some point I do think it 
makes sense for us to have some kind of a follow-up hearing, 
because obviously General Flowers--he will be confirmed, or 
should be--is in a position where he isn't able to know the 
answers to a lot of these questions very directly, which, as he 
indicated, can be expected in some reasonable time period, 30 
to 60 days, for him to have some answers to all this. I 
strongly suggest that we have a follow-up hearing at an 
appropriate time and give the General a chance to expand upon 
the conclusions to some of the questions that have been asked 
of him.
    Senator Smith. I agree with you. I think it would be 
appropriate.
    General Flowers. I would welcome that.
    Senator Baucus. I thank the General.
    Senator Smith. It would be a good opportunity for you to 
share your views at that time.
    Senator Voinovich.
    Senator Voinovich. General, over the past year there have 
been some very public and acrimonious arguments about the 
respective roles of the Corps of Engineers and the Assistant 
Secretary of the Army for Civil Works and the supervision of 
the Corps of Engineers. How do you intend to achieve a more 
constructive role between the Assistant Secretary of the Army 
and Civil Works?
    General Flowers. Sir, I've already met with the Secretary 
and the Assistant Secretaries, and I've begun the work of 
establishing a relationship with them. I have prided myself 
through my career in being able to always find a constructive 
and positive way to work with my bosses. I don't have any 
reason to think I couldn't do the same thing here.
    Senator Voinovich. Mr. Chairman, there has been increasing 
criticism about the objectivity of the Corps' project 
evaluation process, including the Upper Mississippi River 
Navigation Project and the Chesapeake and Delaware Canal 
Deepening Project.
    How are you going to restore confidence in the integrity of 
the Corps' project evaluation process? And have you reached any 
conclusions about whether specific changes are needed in the 
way projects are evaluated and reviewed?
    General Flowers. Sir, I have not reached any specific 
conclusions. We do have to address the issues that were 
highlighted in the series of articles that were done, and I 
commit to doing that.
    Again, if confirmed, I would like the opportunity to come 
back in 30 to 60 days and talk in greater depth, after I've had 
a chance to take a look at where we're at on these projects.
    Senator Voinovich. May I have some more time, Mr. Chairman?
    The Corps' role in the restoration of the environment 
continues to grow. We had some charts here several weeks ago 
about the expanding scope of the Army Corps of Engineers and 
the lack of resources. As a matter of fact, prior to this 
Administration we almost had double the amount of money for 
WRDA projects. So we have expanded the Corps' responsibilities, 
and yet we have cut back about 50 percent on the money that's 
been available.
    The issue is, how do you deal with this expanding role and 
the resources that are not there, and then look at the 
continuing demands for environmental restoration projects? I 
mean, all of us have got them. We have them on the Ohio River, 
$120 million, and so on.
    How are you going to handle that in terms of the next 
Administration? It seems to me to be an almost impossible job. 
What are you going to say to the next Assistant Secretary of 
the Army, or if you get a shot at the President, about what you 
are being asked to do?
    General Flowers. I would probably say, ``Sir, you have a 
tough job.'' But I think it is incumbent on the Corps of 
Engineers and on the Chief to do our best to provide the 
absolute best advice we can, and whenever you have a situation 
like we're in now, I think it is incumbent on us, the Corps of 
Engineers--and we're quite capable of doing it--of laying out 
what the possibility is, recommending priorities, and then 
taking our direction from the Administration and the Congress. 
We're prepared to do that.
    But we owe you our best advice on how to proceed to work 
this.
    Senator Voinovich. Well, I hope that you have the guts to 
be courageous enough to speak your mind, because I think it's 
important that people in your area of responsibility are 
willing to do that and say, ``Look, you're asking me to do a 
job and you're not giving me the money or the tools to get it 
done.'' It's just like the O&M money. I mean, we have the 
Everglades Restoration Project, where we're changing the 
formula. It will be a 50/50 deal, and we have a backlog of $450 
million worth of O&M. It seems to me that--you're talking about 
something that's almost impossible to get done.
    The other thing that I noted in your testimony that struck 
a discordant note, and the only discordant note, was the fact 
that you talked about ``water projects and wastewater.'' 
Getting into wastewater projects, which I think are 
fundamentally the responsibility of State and local 
governments, even the water projects, don't you think you've 
got your hands full enough without taking on those 
responsibilities? That will never end. You will be forever 
behind if you get involved in that kind of thing.
    General Flowers. Sir, I highlighted that because I think 
it's a capability that the Corps has. Whether it is utilized 
and how it is utilized is something that we could make 
recommendations on, but it wouldn't be for us to say.
    So I think that, as you say, the plate is very, very full, 
and we owe you our best recommendation on how we can address 
work for the future, and I assure you we will pass that through 
the boss to you all, sir.
    Senator Voinovich. Thank you.
    Senator Smith. Senator Thomas.

 OPENING STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR FROM THE 
                        STATE OF WYOMING

    Senator Thomas. Thank you, Mr. Chairman. I'm sorry I was a 
little late. I was involved with the Joint Session, with the 
Prime Minister of India.
    Welcome, General. We're glad to have you here. Thank you 
very much for taking time to come by and visit in the last day 
or so.
    Certainly, the Corps of Engineers is an important function, 
one that has, in my view, some very clear responsibilities and 
very clear authorities, and I am supportive of those. I do 
think that there has been and continues to be a clear need for 
a definition of roles, a definition of Corps activities, a 
definition of what this Corps really ought to be doing, and I 
think that's been very unclear, frankly. At least from what I 
read and from what I've heard, the chain of command needs to be 
cleared up and needs to be used more thoroughly. I think, 
again, the things we've heard lately and the reports we've had 
could cause one to think that this is sort of a self-
perpetuating bureaucracy. I don't think that we want to have 
that be the case; I'm quite sure that you don't.
    So I would hope that one of the first things that is done 
is to--with the involvement of this committee, with the 
involvement of the Congress, with the involvement, certainly, 
of the Secretary and the Pentagon--there ought to be a clear 
definition of the role of the Corps of Engineers. I happen to 
be one who has worked and will continue to work on the idea 
that the Government ought to do those things that are 
inherently governmental, and those things that are not ought to 
have an opportunity to be contracted to the private sector. 
Certainly many of the things that you do are the kinds of 
things that are indeed done in the private sector. I can't 
define that, but we have asked--in fact, passed a law--that 
each of the agencies define those things and talk about those 
things that can only be done by Government and are inherently 
governmental in nature, and those things that are not, and move 
toward using more of the private sector in a contracting 
arrangement. I feel very strongly about that; not only in this 
agency, but in others.
    Of course, if that indeed is implemented--and it frankly 
hasn't been implemented as well as it should be--if it is 
implemented, then the role, often, of the agency, and perhaps 
in your agency, would be to very proficient at the oversight 
and the management of contracts, which is something that I 
think is very important.
    So I think many of us are a little confused or a little 
concerned about the so-called ``support for others'' idea, and 
the school work in the District of Columbia, which seems fairly 
inappropriate for a military function and a Corps function. 
These are the kinds of things that I hope you would take a look 
at.
    Are you familiar with the obligation of an agency to define 
the functions that they have with respect to whether or not 
they are inherently governmental, or whether or not they could 
indeed be contracted to the private sector?
    General Flowers. Sir, I am familiar with the concept.
    Senator Thomas. Then what do you propose to do about it?
    General Flowers. Sir, I agree with you. I think those 
things that can be contracted out reasonably should be, and if 
I am confirmed I will work as best we can to determine those 
functions that are inherently governmental that we need to be 
competent in in order to accomplish the missions we have been 
given; we will retain those, and the rest we will try to 
contract.
    Senator Thomas. I appreciate that. Like the chairman and 
the Senator from Montana, I hope that you are able to come back 
in several months after you've had a chance to take a look at 
it. I know that it is a difficult task. Certainly, I think the 
obligation of all of us is to work together to do what we 
believe is the best thing for the Corps of Engineers and the 
best thing for the country.
    General Flowers. Yes, sir.
    Senator Thomas. I know that's your commitment.
    Mr. Chairman, I am sure you have covered most of the things 
that I'm hitting on, so I won't take more of your time.
    But I do welcome you and wish you well. I am sure everyone 
has made it clear that we would certainly like to work with you 
in achieving some of the goals that I hope are common to all of 
us. Thank you, sir, for being here.
    General Flowers. Thank you, sir.
    Senator Smith. I have a couple final questions before we 
close, but Senator Baucus, do you have any further questions?
    Senator Baucus. Just briefly, Mr. Chairman.
    General it just seems to me that the heart of the problem 
is restoring integrity in the process. The next question is, 
how do you do that?
    It seems to me that part of the solution lies, perhaps, in 
more of these decisions being decided in the open, so that both 
the Corps professional staff, the public, and the Congress know 
what the decisions are and why those decisions are reached. 
This is what I mean.
    Clearly, the Corps' professional staff is analyzing these 
projects, using the criteria that have been prescribed. But we 
are a democracy. The Corps should not make all the decisions, 
only, without any congressional input.
    On the other hand, Congress should not unduly, 
inappropriately, or unfairly influence--in my judgment, 
anyway--the professional judgment of the Corps. But it is not a 
bright line between the two. It is a little blurry. There may 
be some times when strict Corps criteria can come close to 
recommending a positive result in a recommendation for a 
project, but not quite. But because of other political 
concerns--and I use politics with a small ``p''--I'm talking 
about rural areas that need development of a project, or maybe 
some emergency somewhere, that it might be appropriate to still 
go ahead and have that project developed, so long as the public 
understands why that decision was reached. That is, it's in the 
open. I don't know how you get more of this in the open.
    The Corps also wants to be able to appropriately resist 
inappropriate political pressure. I would think you would want 
to figure out some way to do that. One way to do that is 
perhaps if more of these decisions were taken in the open; then 
it would be harder for inappropriate political pressure to 
push, and easier for appropriate professional decisions to the 
contrary to stand.
    I think that that's part of what's going on here, and I 
urge you to be thinking about all this when you come back to 
talk to us. You may have some private suggestions, too, about 
how to do some of this. But I do think that with more public 
awareness and scrutiny of what's going on with some of these 
stories that are occurring, appropriately, they would not have 
occurred.
    There are members of the Senate and the House who will push 
you--I won't say inappropriately, but they will raise some 
questions in your mind. You shouldn't be in that spot. There 
should be a process of some kind so that it makes it easier for 
the Corps to stand up and say, ``Hey, wait a minute, this is 
just totally nuts. I'm sorry, this is just totally 
inappropriate,'' and be able to stick by that and not fear 
retaliation, not fear adverse consequences.
    Senator Thomas. Mr. Chairman, to follow on that, in the 
Park Service we did a thing in our bill a couple years ago that 
sort of required a study--and I don't mean to take forever--but 
that instead of a decision just being made here in the 
Congress--that that proposal would be set out there; it would 
be a chance to take a look at it and come back and report on, 
in this case, the Corps' feelings about a project that came 
directly from here, because I agree with you. We're being a 
little critical of the Corps, but part of this contribution 
comes from members of Congress who go ahead and push through 
projects that may or not be appropriate.
    Thank you.
    Senator Smith. We are working on that backlog, however.
    General one of the issues that was raised--I think 
appropriately--by the series of articles in the Post was the 
issue of economic analysis and the potential for manipulating 
that analysis for whatever reason. Maybe it's the political 
pressures that Senator Baucus just referred to, or perhaps some 
other reason. These are very subjective, as you know. There are 
a lot of different variables and criteria and, as I say, 
sometimes the objectives are vague, for sure. There is a 
concern that somehow we cook the numbers or skew the results to 
get the so-called ``right answer'' that is desired by someone, 
whether it be a superior in the executive branch or a 
Congressman or a Senator, which obviously is not what the Corps 
should be about.
    I am certainly not a fan of additional bureaucracy, but how 
do you feel about an independent peer review on some of these 
projects? I'm not asking you the question as an advocate, but 
just as one who is looking for some way to perhaps dispel some 
of that concern. I am sure some of it is justified, no 
question.
    As to how we might deal with that, would peer review work? 
Or would that encroach too much on what the Corps needs to do? 
What's your view on that?
    General Flowers. Sir, I think----
    Senator Smith. Independent. Not executive or legislative, 
but some independent source.
    General Flowers. Yes, sir. Philosophically, I think it may 
be part of the solution to get at what Senator Baucus is 
talking about, making things more open and making people have a 
little more confidence in the decisions that are made.
    I would say, though, that you would have to look at it on a 
case-by-case basis. You're going to be overlaying a peer review 
on top of a process which is already very lengthy and has 
extensive public involvement. I commit to making sure that 
those processes are as open as they possibly can be.
    So I think you would have to evaluate whether the cost and 
the time that it would take to do a peer review for a project 
would be worth the bang for the buck. If it's deemed that it 
is, I would certainly be in favor of it.
    Senator Smith. A final question from me. You are about to 
assume the helm here. Any specific priorities or vision that 
you would like to share with us as far as--I'm not asking you 
to get into the management reform issue; that's not the intent 
here--but any vision, as you go into the 21st century as you 
alluded to in your statement, that perhaps some priorities as 
opposed to management changes? I'm not trying to drag you into 
that at this point.
    General Flowers. Sir, the first priority is for me to get 
in and get very comfortable with the organization, and I think 
I can do that, based on my experience, fairly quickly, to make 
sure that I am seeing to the morale of the great people who 
make up the Corps of Engineers, get them on board with me in 
moving into the future, to find a way to reacquaint the 
American people with the Corps of Engineers, who we are and 
what we do, and to work hard to establish your confidence and 
the confidence of the other stakeholders in what we do, so that 
when we tell you something and make our recommendations, they 
are based on absolutely the best science and engineering and 
judgment that we can apply.
    Having said that, my intent is to very quickly work with 
all of the Administration, the Corps, the Congress, in 
establishing a campaign plan for the future for the Corps that 
will get us as quickly to work as we can on those things that 
are important.
    Senator Smith. Senator Voinovich, you had a couple more 
questions? Go ahead.
    Senator Voinovich. You probably don't have the answer to 
this, but it's my understanding that the release of the Army 
Inspector General report on the Upper Mississippi-Illinois 
Waterway Project has been delayed for 60 days, and that this 
delay was not requested by the Army. Do you have any 
information on that?
    General Flowers. No, sir, I don't.
    Senator Voinovich. Could you find out?
    General Flowers. Yes, sir.
    [Information supplied follows:]

    I have been told that on August 14, 2000, based on need to finalize 
preparation and review of its report, the Department of the Army 
Inspector General (DAIG) requested a 45-day extension of time for 
submitting its report to the Special Counsel, until October 12, 2000. 
With the Office of the Secretary of Defense's (OSD) concurrence, the 
Army forwarded that request for extension to the Special Counsel, and 
it was approved. I understand that the Army forwarded the DAIG report 
to OSD on September 20, 2000.

    Senator Voinovich. Is it incomplete, not ready to go? Or is 
it ready to go and someone is just holding it back?
    General Flowers. Sir, I have no knowledge of the results of 
the IG report, and I don't know if it's been concluded or not, 
quite frankly.
    Senator Voinovich. Well, I'd like to know about it.
    General Flowers. OK, sir, I'll see what I can do.
    Senator Smith. Thank you very much, General Flowers. We 
appreciate your being here. We will pass the information from 
the hearing on to Senator Warner, and I am sure Senator Warner 
will move appropriately to move the nomination to the floor of 
the Senate.
    Let me just cover a couple housekeeping details. We will 
leave the record open until Tuesday at 5 p.m. for members who 
may wish to ask questions or for any responses for the record 
that you had agreed to provide to other Senators.
    For the benefit of the media, if the letter has been signed 
by the other chairman--I am just told it has not been, so we 
will make that letter available as soon as it is, and you can 
contact the press department of the committee and we can 
provide that letter to you. It should be shortly. I don't want 
to give it out before the Senator has signed it.
    With that, the hearing is adjourned.
    [Whereupon, at 10:50 a.m., the committee was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
    Statement of Senator Barbara Boxer, U.S. Senator from the State 
                             of California
    Thank you, Mr. Chairman.
    I would like to welcome Major General Flowers to the committee this 
morning. It was my pleasure to meet with Major General Flowers earlier 
this week to discuss the work of the Corps in California and the 
Nation. I congratulate you on your appointment to this post.
    The Corps has been a positive partner in many projects in 
California. The Corps, for example, has worked closely with Napa 
County, California, to provide flood protection not by taming the Napa 
River, but by restoring the River's natural floodplain.
    I think it's fair to say, though, that this and the other positive 
work of the Corps in my State has been overshadowed today by the 
constant reports of Corps mismanagement.
    We've learned of the Corps military commanders lobbying Congress 
for $2 billion more in appropriations without authorization from their 
civilian leaders or this Administration. We've learned that Corps 
military commanders have directed their civilian staffs to rig cost-
benefit analyses to justify otherwise unjustifiable billion dollar 
projects. We've learned that the Corps sometimes flouts the very 
environmental laws they are charged with enforcing against the private 
sector.
    I think that it is in this committee's strong interest and in the 
Corps' strong interest to begin to seriously look at common sense 
reforms.
    I believe that meaningful reform is the only way to restore the 
public trust and integrity that I know is so important to both the 
civilian and military leaders of the Corps. Reforms like subjecting 
Corps' projects to independent review and modernizing the environmental 
rules that guide the Corps' work could go a long way to accomplishing 
those goals.
    And there are specific cases in California where the Corps can put 
those reforms to work even before we formalize nationwide policy or 
legislation to do so.
    Independent review of the Corps' work, for example, is something 
that is critically important to the local residents of San Bernardino, 
California. There the Corps has studied and recommended the removal of 
the Deer Creek levee. The Corps says removal of the levee will not 
decrease the community's flood protection. The community funded their 
own study which raised substantial questions about the Corps analysis.
    Independent review in this case would ensure that mistakes are not 
made that endanger the health and safety of the people or that lead to 
flood damage. I hope that you will work with me by committing to 
subjecting the Corps' study in this case to an independent review.
    The Corps can also go a long way to restoring the public trust in 
my State by removing the 2,200 tons of radioactive waste it dumped in 
an unlicensed California dump. I have had countless meetings with the 
Corps, co-chaired a hearing of this committee on this incident and 
continued to press the Corps to remove this waste from California.
    Much to my great disappointment and the disappointment of the 
people I serve, that waste is still sitting in an unlicensed California 
dump. I hope that you will work with me to put the Corps' reputation 
right on this issue by removing that waste from my state.
    I look forward to working with you on these issues. I think we can 
make progress on them.
    Thank you, Mr. Chairman.
                               __________
Statement of Senator Max Baucus, U.S. Senator from the State of Montana
    Thank you, Mr. Chairman, for holding this hearing and I want to 
join you in welcoming Major General Flowers here this morning.
    General Flowers' nomination comes at a time when the Corps is 
facing a great deal of public scrutiny for the way they do business. 
There has been criticism of the way some economic and environmental 
analyses are being done, or, in some cases, not being done at all.
    There are some who feel the time has come for sweeping reforms at 
the Corps. Others feel that the status quo is just fine.
    My own view is that some changes need to be made in order to 
justify the trust that this committee, and the American people, must 
have in the work of the Corps of Engineers.
    This committee depends on the professionalism of the Corps and, in 
particular, on the integrity of the Chief of Engineers' reports when we 
consider authorizing Corps projects. I will have some questions about 
this later for General Flowers. My main point is that the analyses that 
we are relying on must be the best that they can be.
    General, you have a distinguished 31-year record of service to your 
country, some of it in very challenging assignments.
    Yet the position to which the President has nominated you may well 
be your most challenging.
    There will be numerous legal, technical, and policy issues to 
confront. But I hope you will also address the moral of your employees, 
especially in light of the ongoing controversies.
    I know the Corps employees, both military and civilian, want to 
being doing a good job. To take pride in their efforts. In my state, 
for instance, you have some fine staff. The manager at Fort Peck Lake 
is a perfect example. He works closely with everyone in the community 
and does a great job at that facility. He is giving the Corps a good 
name.
    In conclusion, General Flowers, I look forward to hearing from you 
this morning. I also want you to know that you should feel free to call 
on this committee and it's members if you need any assistance--or even 
free advice--as you assume your new role.
                               __________
    Statement of Senator George V. Voinovich, U.S. Senator from the 
                             State of Ohio
    Thank you General Flowers for participating in this informational 
hearing in anticipation of receiving your third star and command as 
Chief of Engineers for a 4-year period. This has been a difficult year 
for the Corps of Engineers. As highlighted again this week in a second 
series of articles in the Washington Post, many aspects of the Corps 
program are in the center of controversy. There are concerns about the 
environmental impacts of certain projects, charges that the Corps 
evaluation of projects is not objective, very public and acrimonious 
arguments about the respective roles of the Chief of Engineers and the 
Assistant Secretary of the Army for Civil Works, debates about the 
appropriate mission of the Corps and its growth, and arguments about 
the proper role of the Congress versus the executive branch in 
directing and overseeing the Corps program.
    I am personally very concerned by these many allegations. As the 
chairman of Transportation of Infrastructure Subcommittee, which has 
oversight over the civil works program of the Corps, I have met with 
your predecessor, and the Assistant Secretary for Civil Works, and the 
Secretary of the Army and extensively discussed these concerns and 
listened to their assessment of the challenges facing the Corps.
    What is very clear to me through all of this is that national water 
resources needs are real and growing. We need to continue to develop 
and modernize our water transportation system to compete in an 
increasingly global economy; flooding remains a threat to many 
communities; the Corps infrastructure is aging and facing the need for 
critical maintenance, rehabilitation and replacement; and the expertise 
of the Corps is needed to help restore the environment.
    While these needs grow, our national investment continues to 
decline. In constant dollar terms our Federal investment in water 
resources development is less than one-half of its levels in the 
1960's. At the same time we are asking the Corps to do more 
particularly in the area of environmental restoration. The lack of 
investment has created a backlog of $38 billion in projects awaiting 
construction dollars and $450 million in deferred critical maintenance 
of existing projects.
    <bullet> I think that it is very important that you first 
investigate and define the problems facing the Corps.
    <bullet> These would include the ongoing investigation of the Upper 
Mississippi River, as well as many of the problems highlighted in the 
recent Washington Post series.
    <bullet> As I mentioned to you in my office this week, most of 
these problems should be handled with an Administrative view.
    <bullet> As a former Mayor and Governor, it is my belief that many 
of the problems can be addressed by strengthening the relationship 
between yourself and the Assistant Secretary of the Army for Civil 
Works and the Secretary of the Army.
    <bullet> I also think that it is important that you develop a 
strategic plan for addressing the many challenges facing the Corps as 
the new Chief.
    <bullet> I look forward to working with you in the future on 
legislative solutions, where appropriate, for dealing with the many 
challenges ahead.
       Statement of Major General Robert B. Flowers, Nominee for 
                           Chief of Engineers
    Thank you Mr. Chairman and members of the committee. I am deeply 
honored to appear before you today as the nominee to be Chief of 
Engineers of the Army Corps of Engineers. I want to thank the President 
and the Secretary of the Army for giving me this extraordinary 
opportunity to continue to serve the men and women of this great 
Nation. If confirmed, I will lead the Army Corps of Engineers into the 
twenty-first century with great pride.
    The United States Army Corps of Engineers has a long and proud 
tradition of providing invaluable engineering and construction service 
to the Nation in peacetime and in war. Its military mission includes 
providing for the defense of American soldiers and furnishing needed 
housing and facilities for service members and their families. Its 
civil works mission--fighting floods and developing, preserving and 
protecting critical water resources--is equally vital to the nation's 
welfare. The Corps is a dynamic organization that has continually 
evolved to meet the changing needs of the nation. From building forts, 
mapping the uncharted regions of developing America, and constructing 
flood control and navigation projects to pursuing environmental 
restoration projects, the Corps of Engineers has responded to the 
changing needs of America.
    If I am confirmed as the Chief of Engineers, I intend to establish 
a clear direction of leadership for the Corps as it performs its 
important civil works and military missions. That direction must target 
the nation's critical needs and be fully supported by the American 
people. It also must ensure that Corps employees have opportunities to 
achieve their career goals and make contributions that are acknowledged 
and appreciated.
    Historically, the Nation's rich and abundant water, and related 
land resources provided the foundation for the successful development 
of America. Since the beginning of our nation, the Corps of Engineers 
has played a pivotal role in the stewardship of these important 
resources, initially by developing our nation's water resources, and 
later by restoring and protecting the environment. The Corps has 
improved the quality of life by making America more prosperous, safe, 
and secure. The Corps must remain flexible in order to continue to make 
important contributions to the Nation and respond to America's 
contemporary needs.
    Communities nationwide rely on the Corps to reduce flood damages, 
facilitate navigation, provide needed supplies of water and power, and 
protect and restore our aquatic resources. The projects approved by 
Congress represent a sound investment in the nation's security, 
economic future, and environmental stability. The Corps' greatest 
challenge is to find sustainable ways to strengthen the nation's 
economy while protecting and restoring our unique water and related 
land resources for the benefit of future generations.
    The Corps faces the demanding tasks of maintaining its vast 
inventory of existing public improvements and pursuing new projects 
that develop, conserve, preserve and protect our aquatic resources. It 
must provide for a system of ports and inland waterways that will 
efficiently transport goods. It also must find creative ways to prevent 
or reduce flood damages. Finally, more and more communities are looking 
to the Corps to provide adequate sources of potable water and to find 
new ways to manage wastewater disposal in order to provide for economic 
growth and the quality of life that people deserve.
    I believe that the Corps must carry out these varied missions in an 
environmentally responsible manner. The Corps has a long record of 
coordinating its missions and planning its projects in compliance with 
the requirements of the National Environmental Policy Act and other 
environmental laws, which has led to better and more environmentally 
sensitive projects. If I am confirmed as the Chief of Engineers, I will 
ensure that all projects are planned and constructed in a manner that 
avoids or minimizes undesirable environmental impacts.
    The challenges the Corps faces are complex and require difficult 
decisions to be made. These decisions must take into account the 
requirements of existing law and fiscal constraints. They also involve 
a balancing of diverse interests. The proper reconciliation of these 
interests demands open communication. Therefore, I will engage in a 
cooperative dialog with Congress, other Federal agencies, States, 
Tribes, local governments, and other interested parties in order to 
find constructive solutions to our nation's problems.
    During the course of this dialog, I am committed to maintaining the 
integrity of the Corps of Engineers and to making decisions that 
deserve the full confidence of the American public. If I am confirmed 
as the Chief of Engineers, I will work cooperatively with all interests 
and thoroughly consider all points of view. The openness of these 
discussions will ensure that Corps decisions are objective, and broadly 
understood and supported.
    If I am confirmed as the Chief of Engineers, I expect to work 
closely with the Administration and Congress as I discharge my 
leadership duties. I am confident that working in concert, we can 
marshal the great capabilities of the Corps in a way that maximizes the 
benefits to the public because we share the common goal of providing 
for the nation's well-being.
    Should I be confirmed, I look forward to working with this 
committee in addressing any issues that may arise during my tenure. 
Again, I appreciate the opportunity to appear before you today, and 
would be pleased to answer any questions you may have.
                                 ______
                                 
               Major General Robert B. Flowers, U.S. Army
Source and Year of Commissioned Service

    ROTC.

Military Schools Attended

    Engineer Officer Basic and Advanced Courses
    United States Army Command and General Staff College
    National War College

Educational Degrees

    Virginia Military Institute--BS Degree--Civil Engineering
    University of Virginia--MS Degree--Civil Engineering

Foreign Languages

    None recorded.

Promotions and Dates of Appointment

    2LT--4 Jun 69
    1LT--4 Jun 70
    CPT--4 Jun 71
    MAJ--5 Mar 80
    LTC--1 Aug 85
    COL--1 Jun 90
    BG--1 Nov 94
    MG--1 Sep 97

Major Duty Assignments

    Jan 70-Jan 72: Construction Platoon Leader, later Commander, B 
Company, 94th Engineer Battalion, United States Army Europe, Germany;
    Jan 72-Oct 72: S-3 (Operations), 94th Engineer Battalion, United 
States Army Europe, Germany;
    Oct 72-Mar 73: Assistant Facilities Engineer, United States Army 
Garrison, Fort Monroe, Virginia;
    Apr 73-Mar 74: Facilities Engineer, United States Army Udorn 
Detachment, United States Army Support Command, Thailand;
    Mar 74-Jan 76: Student, University of Virginia, Charlottesville, 
Virginia;
    Jan 76-Aug 76: Student, Engineer Officer Advanced Course, United 
States Army Engineer School, Fort Belvoir, Virginia;
    Aug 76- Jun 80: Assistant to the Area Engineer, later Civil 
Engineer, and later Research Engineer, United States Army Engineer 
District, Portland, Oregon;
    Jun 80-June 81: S-1 (Adjutant), 20th Engineer Brigade, Fort Bragg, 
North Carolina;
    Jun 81-Jun 83: S-3 (Operations), later Executive Officer, 307th 
Engineer Battalion, 82d Airborne Division, Fort Bragg, North Carolina;
    Jun 83-Jun 84: Student, United States Army Command and General 
Staff College, Fort Leavenworth, Kansas;
    Jun 84-May 85: Combat Developments Systems Manager, United States 
Army Combined Arms Command for Combat Developments, Fort Leavenworth, 
Kansas;
    May 85-Jun 87: Commander, 307th Engineer Battalion, 82d Airborne 
Division, Fort Bragg, North Carolina;
    Jun 87-Jun 88: Student, National War College, Fort McNair, 
Washington, DC;
    Jun 88-Apr 90: Operations Officer, later Chief, Host Nations 
Operations Branch, J-3, The Joint Staff, Washington, DC;
    May 90-Jun 92: Commander, 20th Engineer Brigade, XVIII Airborne 
Corps, Fort Bragg, North Carolina and OPERATIONS DESERT SHIELD/STORM, 
Saudi Arabia;
    Jun 92-Dec 92: Deputy Assistant Commandant, United States Army 
Engineer School, Fort Leonard Wood, Missouri;
    Dec 92-Mar 93: Unified Task Force Engineer, United Nations Task 
Force, OPERATION RESTORE HOPE, Somalia;
    Mar 93-Jul 94: Deputy Assistant Commandant, later Assistant 
Commandant, United States Army Engineer School, Fort Leonard Wood, 
Missouri;
    Jul 94-Aug 95: Assistant Division Commander, 2d Infantry Division, 
Eighth United States Army, Korea;
    Aug 95-Jul 97: Commanding General, United States Army Engineer 
Division, Lower Mississippi Valley, Vicksburg, Mississippi.

Summary of Joint Assignments

    Operations Officer, and later Chief, Host Nation Operations Support 
Branch, J-3, The Joint Staff, Washington, DC: Jun 88-Apr 90; Lieutenant 
Colonel.

U.S. Decorations and Badges

    Distinguished Service Medal
    Legion of Merit (with 2 Oak Leaf Clusters)
    Bronze Star Medal
    Defense Meritorious Service Medal
    Meritorious Service Medal (with Oak Leaf Cluster)
    Army Commendation Medal (with 3 Oak Leaf Clusters)
    Master Parachutist Badge
    Ranger Tab
    Joint Chiefs of Staff Identification Badge
                                 ______
                                 
Responses by Major General Flowers to Additional Questions from Senator 
                                 Inhofe
    Question 1a. Wetlands mitigation banks have proven to be very 
successful in restoring and enhancing high quality wetlands across the 
nation. One reason for that success is that the Federal guidance on 
mitigation banking issued in November, 1995 sets standards that all 
mitigation banks must meet before the Corps (with the consensus of 
other Federal and State review agencies) approves a mitigation bank.
    However, so-called ``fee-in-lieu payments,'' in which an applicant 
pays a fee into an account ``in lieu'' of performing onsite mitigation, 
are not subject to similar standards. In addition, it appears that some 
fee in lieu programs have collected fees, but failed to restore or 
enhance any wetlands. While I support the continued availability of 
such programs, I want to ensure that wetlands mitigation is actually 
performed.
    Recently EPA circulated a draft guidance for fee in lieu payment 
programs that established some standards. In addition, the draft 
guidance established a preference for the use of mitigation banks over 
fee in lieu payments where both are available to applicants. What is 
the status of the draft guidance?
    Response. The draft guidance is currently pending agency signature 
approval.

    Question 1b. What is the Corps' position on the draft guidance?
    Response. The Corps supports a most recent version of the guidance 
that would provide some technical and procedural information to support 
better mitigation projects. The Corps' Institute for Water Resources 
recently conducted an investigation of seven representative in-lieu-fee 
arrangements. The initial findings from that study indicate that the 
development of future in-lieu-fee arrangements could benefit from 
guidance concerning, fee setting, cost accounting, transfer of 
liability, and increased interagency involvement. All of these are 
addressed in the most recent draft of the guidance under consideration.

    Question 1c. How many dollars in fees have been collected under in 
lieu fee mitigation program under the Section 404 program?
    Response. The Corps' automated information systems for tracking 
statistical information about regulatory actions does not store the 
number of dollars collected by in-lieu-fee arrangements.

    Question 1d. How many acres of wetlands have been restored, 
enhanced, created or preserved under fee-in-lieu mitigation programs 
under the Section 404 program?
    Response. The Corps' automated information systems also do not 
differentiate among the methods or types of mitigation projects. The 
systems are designed to provide the aggregate number of acres of 
mitigation required, irrespective of the production source or method.

    Question 2. On FEMA's role on the new Nationwide Permits, you 
seemed to imply that FEMA's only real role will be to supply the 
floodplain maps. If permits are filed for activities within the 
floodplain, will FEMA have any kind of decisionmaking authority?
    Response. FEMA does not have any decisionmaking authority for 
permit applications for activities requiring a Corps' permit within 
floodplains.

    Question 3. On pending regulations you noted that the Corps issued 
proposed rules in April and August and that another proposed rule is 
expected shortly on discharge of fill material into isolated wetlands. 
We are getting awfully late in this Administration to be pushing three 
major rulemakings like this. I am afraid that these regulations are 
being rushed in order to appease a few special interest groups. I am 
requesting that you pledge on behalf of the Corps to keep this 
committee and in particular my subcommittee informed.
    Response. If I am confirmed, I assure you that the Corps will keep 
the committee and the subcommittee informed regarding these three 
rulemakings. At this time the status of these rulemakings has not 
changed from my previous response.
                               __________
Responses by Major General Flowers to Additional Questions from Senator 
                              Craig Thomas
    Question 1. What is the Corps' definition of inherently 
governmental functions?
    Response. I am aware of only two definitions of inherently 
governmental functions.\1\ One is contained in the Office of Management 
and Budget (OMB) Circular Number A-76, Performance of Commercial 
Activities, which establishes Federal policy regarding the performance 
of commercial activities and implements the statutory requirements of 
the Federal Activities Inventory Reform (FAIR) Act of 1998 (Public Law 
105-270). The other is contained in the FAIR Act itself. The OMB 
Circular Number A-76 definition provides as follows:
---------------------------------------------------------------------------
    \1\ There is one other special statutory definition contained in 
section 196 of the National and Community Service Trust Act of 1993 
(Public Law 103-82 (42 U.S.C. sec. 12651g(a)(1)(C) (iii)). It provides 
that volunteers may not perform inherently governmental functions 
which, for purposes of that provision, are defined to mean ``any 
activity that is so intimately related to the public interest as to 
mandate performance by an officer or employee of the Federal 
Government, including an activity that requires the exercise of 
discretion in applying the authority of the Government or the use of 
value judgment in making a decision for the Government.''
---------------------------------------------------------------------------
    An inherently governmental function is a function which is so 
intimately related to the public interest as to mandate performance by 
Government employees.
    The FAIR Act definition provides as follows:
    The term ``inherently governmental function'' means a function that 
is so intimately related to the public interest as to require 
performance by Federal Government employees. (Pub. L. 105-270, sec. 
5(2)(A)).
    To my knowledge, there is no separate Corps definition of the term, 
and the Corps would implement the definitions quoted above as 
appropriate.

    Question 2. It is my understanding that the Corps is reviewing its 
policy regarding school construction and the support for others (SFO) 
program. It is also my understanding the new policy is due November 1. 
What policy changes will you propose to make sure that the local 
districts are deferring commercial activities to the private sector? I 
would appreciate you sharing the new policy with me when it is 
implemented.
    Response. With regard to providing assistance to schools, I 
understand that Corps headquarters has already instructed its local 
districts that headquarters approval is necessary before they agree to 
provide any more support. This process is already functioning and has 
already resulted in the Corps declining work.
    I also understand that the Corps is developing a new SFO policy 
that will be ready by the end of November. This policy will place 
strict controls on accepting new work. It will contain criteria 
outlining when approval of the Headquarters and the appropriate 
Assistant Secretary is required. It will require that an exit strategy 
for Corps withdrawal be developed initially for any new work for State 
and local governments. This policy will also emphasize the Corps/
industry partnership necessary to accomplish the work with the actual 
execution being accomplished primarily by the private sector. We will 
be happy to share additional details with you after the new policy is 
developed.
                                 ______
                                 
Responses by Major General Flowers to Additional Questions from Senator 
                               Ron Wyden
    Question 1. Legislation has recently been introduced to reform how 
the Corps operates. One element of the legislation is a requirement 
that major Corps projects undergo an independent review to ensure that 
taxpayers will receive at least as much benefit from a project as it 
costs and the project is environmentally sound. Corporations must 
undergo independent financial audits of their operations. And 
scientists must subject their work to independent peer review. Why 
shouldn't the Corps' studies and analyses be subject to an independent 
review?
    Response. Studies and analyses undertaken by the Corps are subject 
to independent review. While the independent review process extant at 
the Corps is not a formalized peer review process such as is practiced 
by the scientists and engineers in the research community, the process 
in place for major studies includes many opportunities for comment by, 
and consultation with, stakeholders, elected officials at all levels, 
technical experts, and the general public before recommendations are 
submitted to Congress.
    I would be willing to consider the need for a formalized 
independent peer review program. I note, however, that such a program 
likely would be overlaid upon the current process with the existing 
checks and balances, which already ensure the integrity of Corps of 
Engineers project proposals. The Corps currently studies its potential 
projects in accordance with Economic and Environmental Principles and 
Guidelines for Water and Related Land Resources Implementation Studies) 
set forth in Executive Order 12322. Environmental considerations, 
including strict compliance with the National Environmental Policy Act 
of 1969, are an integral part of the study and planning for every Corps 
project. This study process requires extensive public involvement 
opportunities and provides for multiple reviews to ensure objectivity, 
including independent technical reviews, a minimum of two formal public 
reviews, Washington-level policy review, State and agency coordination 
requirements, and final review by the executive branch under Executive 
Order 12322.
    Thus, under its existing study process, the Corps thoroughly 
assesses the economic justification and environmental suitability of 
each potential Corps project before making a recommendation for 
appropriate action through the Secretary of the Army to the Congress. 
The Congress then decides whether to authorize implementation of a 
project after conducting such congressional hearings and deliberations 
as the Congress deems appropriate.
    Only about 16 percent of all Corps studies lead to projects for 
construction. In other words, the Corps study process weeds out 84 
percent of the potential projects authorized for study by Congress. 
Collectively, the projects that have survived the rigorous process and 
that have been constructed have provided the Nation an average annual 
return on investment of over 26 percent. This impressive result 
strongly assures the authorizing and appropriations committees that the 
Corps is doing a good job of recommending projects that are of great 
benefit to the Nation.
    Moreover, the Corps recently commissioned the National Research 
Council of the National Academy of Sciences to review and recommend how 
to improve the Corps' planning processes. The Council's 1999 study 
findings generally affirmed the Corps' process. Nevertheless, the 
Council made some recommendations for improving the process, and I 
understand the Corps is revising and clarifying the process to reflect 
those recommendations. Notably, the National Research Council did not 
recommend outside review as a means to further improve the process.
    In addition, in recent years, project sponsors and the Congress 
have implored the Corps to change the project delivery process to 
address pressing needs more expeditiously. The Corps has responded to 
such entreaties by streamlining the process to make it more efficient 
and timely. Overlaying a requirement for the involvement of an outside 
review agency would slow the process down, eroding any improvements 
that have been made thus far. The costs of such a review, in lost time, 
may far outweigh marginal benefits that might be gained over an 
existing process which already eliminates 84 percent of the potential 
projects authorized for study by Congress.
    Clearly, the Corps' study process already ensures independent 
technical review, as well as full and open public participation on 
Corps of Engineers project proposals, that final recommendations are 
unbiased, based on the best science available, and that the path chosen 
is in the public interest. Again, while I am not opposed to considering 
establishment of a formalized independent peer review program in 
principle, I do believe that overlaying such a program over an already 
existing process that accomplishes much the same may detract from the 
Corps' efforts to be more responsive to the desires of both project 
sponsors and the Congress for the Corps to streamline the process for 
improved efficiencies and timeliness.

    Question 2. Corps officials recently told my staff that the Corps 
won't follow a directive concerning repair of the East Astoria Boat 
Basin included in the Senate Energy and Water Appropriations Report. 
According to these officials, the Corps will only follow the directive 
to repair the Astoria Boat Basin if it is included in the bill itself. 
What is the Corps' position concerning its obligation to follow 
Congressional directives concerning Astoria and other projects named in 
report language?
    Response. Considerable discussion occurred within the Corps over 
the application of past laws and regulations to the Astoria East Boat 
Basin project and the Senate committee report language. Upon further 
legal review in Portland District, it has been recommended that the 
Senate committee report language be followed. The Corps regrets any 
confusion that resulted from the lengthy review of this matter.

    Question 3. In 1988, the Port of Astoria entered into a local 
cooperation agreement with the Corps of Engineers to restore the 
deteriorating breakwater that protects the fishing fleet. The Port made 
a number of improvements to its Boat Basin, including 30 new slips, a 
new parking lot, and resurfaced the roadway. All these improvements 
were done with the Corps' approval. To date, the Port has spent $1.3 
million in improvements since the agreement with the Corps as the local 
share of the project. Given that the Port has paid its local share 
under its agreement with the Corps, how can the Corps now insist that 
the Port pay the additional costs of removing these improvements as a 
condition of having the breakwater fully restored?
    Response. Please see the response to question number 2 above. The 
Corps intends to comply with the Senate's direction in the committee 
report.

    Question 4. Can you explain how the Corps can justify to the 
taxpayers a proposal to overhaul the Federal dredge McFarland so it can 
sit idle most of the time? If you're spending taxpayer money to 
modernize the McFarland, shouldn't it be allowed to work?
    Response. The Corps hopper dredge McFarland was launched in 1967, 
and is in need of major overhaul, rehabilitation and modernization. The 
recommendation to place the McFarland in a ready reserve status does 
not conclude that it will sit idle most of the time. Historical 
dredging requirements indicate that there are periods when unforeseen 
requirements and peak workload demands exceed the industry capabilities 
and warrant the use of Corps' Federal hopper dredges. The Wheeler, 
while in a ready reserve status during the first 2 years, worked an 
average of 103 days per year.

    Question 5. The proposal to place the dredge McFarland in reserve 
is also directly contrary to what the Corps' New Orleans District 
recommended based on their first-hand experience after the New Orleans-
based dredge Wheeler was place in reserve status. The District found 
that keeping the Wheeler in reserve increased costs, delayed response 
time and left the Wheeler with insufficient crew for staffing. The 
District report states,

          Based on the findings of this report, there is no other 
        logical recommendation, except for the Secretary to report to 
        Congress that the Wheeler should be returned to active status 
        and no other hopper dredge should be placed in reserve.

    Despite these conclusions by the Corps officials closest to the 
situation, Corps headquarters has proposed continuing this failed 
experiment.
    The findings and conclusions of the New Orleans District raise 
serious questions whether the Corps is playing politics to manipulate 
its studies and recommendations to Congress. How can you justify the 
Corps recommendations for its hopper dredges contained in the Corps' 
June 12 report to Congress?
    Response. While I am aware of a draft document referencing data 
from the New Orleans District, this is not an official report and has 
not been approved by the Corps of Engineers. The references to data 
concerning the unit price and comparison with the Government Estimate 
for hopper dredging in the New Orleans District could suggest a 
different conclusion than that recommended in the Report to Congress. 
The Corps did not reach its conclusions based solely upon the unit 
price of material removed by hopper dredge in one district; however, 
from a national perspective the average unit price for all hopper 
dredging contracts did not significantly change. The effectiveness of 
using Corps hopper dredges in ready reserve can not be evaluated solely 
on cost, but must take into account the variables of the dredging 
requirements and capabilities of the combined industry and Corps fleet. 
Each year has presented the Corps and industry with differing demands 
on the hopper dredge capabilities, including high water shoaling in the 
Mississippi River, rapid, unforeseen shoaling in the Mississippi River 
Gulf Outlet following a hurricane, coupled with South Atlantic dredging 
requirements predicated by sea turtle dredging windows at the same 
time. It is the very fact that there are different requirements every 
year that confirms the need to have Federal hopper dredge capabilities 
for peak workload demands, and the ability to place these resources in 
ready reserve when conditions do not require a full fleet capability. 
The hopper dredging contract experience this year is a good example of 
the value to the Government of being able to place Federal dredges in 
ready reserve. The Mississippi River remained in a low water State the 
entire year, and only one hopper dredging contract was awarded in New 
Orleans, as compared to a high water State when as many as 11 contracts 
were awarded in a 4-month span. The net result to the national program 
was a substantial decrease in the cost of hopper dredging contracts, 
and only 50 percent of the average annual number of jobs awarded. 
Competition was improved and three contracts had all five hopper dredge 
owning contractors bidding. Yet, even with this minimum amount of work, 
there was an unforeseen requirement that warranted the use of the 
WHEELER in conjunction with three industry hopper dredges as a result 
of a sunken drydock in the Calcasieu River. The availability of the 
Corps ready reserve hopper dredge expedited the dredging of a diversion 
channel around the drydock, rapidly responding to the needs of the 
project. I am confident that the cost of hopper dredging can be 
reasonable and the requirements to our ports and maritime users can be 
met with the recommended ready reserve capabilities of the Federal 
hopper dredges.
  

                                <greek-d>

</pre></body></html>
